<html>
<title> - TRIBAL GOVERNMENT AMENDMENTS TO THE HOMELAND SECURITY ACT OF 2002</title>
<body><pre>[Senate Hearing 108-312]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-312

   TRIBAL GOVERNMENT AMENDMENTS TO THE HOMELAND SECURITY ACT OF 2002

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                                 S. 578

  TO AMEND THE HOMELAND SECURITY ACT OF 2002 TO INCLUDE INDIAN TRIBES 
AMONG THE ENTITIES CONSULTED WITH RESPECT TO ACTIVITIES CARRIED OUT BY 
                   THE SECRETARY OF HOMELAND SECURITY

                               __________

                             JULY 30, 2003
                             WASHINGTON, DC




89-143              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 578, text of..................................................     2
Statements:
    Akaka, Hon. Daniel K., U.S. Senator from Hawaii..............    45
    Bennett, Audrey, president, Prairie Island Indian Community 
      of Minnesota...............................................    30
    Edwards, Gary, chief executive officer, National Native 
      American Law Enforcement Association.......................    50
    Filler, Josh, director, Office of State and Local Government 
      Coordination, Department of Homeland Security..............    26
    Hall, Tex, president, National Congress of American Indians..    47
    Heffelfinger, Thomas B., U.S. attorney, State of Minnesota, 
      on behalf of the Department of Justice.....................    22
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................     1
    Johnson, Roland E., Governor, Pueblo of Laguna...............    33
    Juan-Saunders, Vivian, chairperson, Tohono O'odham Nation of 
      Arizona....................................................    38
    Old Person, Earl, chief and tribal council member, Blackfeet 
      Tribal Business Council of Montana.........................    36
    Raub, William F., principal deputy assistant secretary, 
      Office of Public Health Emergency Preparedness, Department 
      of Health and Human Resources..............................    27
    Sanders, Tim, emergency operations coordinator, Gila River 
      Indian Community Office of Emergency Management, Gila River 
      Indian Community...........................................    52
    Virden, Terry, director, BIA, Department of the Interior.....    25
    Windy Boy, Alvin, chairman, Chippewa Cree Business Committee 
      of Montana.................................................    40

                                Appendix

Prepared statements:
    Bennett, Audrey (with attachment)............................    60
    Edwards, Gary (with attachment)..............................    63
    Filler, Josh.................................................   127
    Hall, Tex....................................................   131
    Heffelfinger, Thomas B.......................................   137
    Johnson, Roland E. (with attachment).........................   148
    Juan-Saunders, Vivian (with attachment)......................   167
    Old Person, Earl.............................................   183
    Sanders, Tim (with attachment)...............................   187
    Raub, William F..............................................    59
    Viarrial, Jacob, Governor, Publo of Pojoaque, New Mexico.....   199
    Virden, Terry................................................   202
    Windy Boy, Alvin.............................................   204

 
   TRIBAL GOVERNMENT AMENDMENTS TO THE HOMELAND SECURITY ACT OF 2002

                              ----------                              


                        WEDNESDAY, JULY 30, 2003


                                       U.S. Senate,
                        Senate Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m. in room 
216, Hart Senate Building, Hon. Daniel Inouye (vice chairman of 
the committee) presiding.
    Present: Senators Inouye and Akaka.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. The Committee on Indian Affairs meets this 
afternoon to receive testimony on S. 578, a bill to amend the 
Homeland Security Act of 2002 to include Indian tribal 
governments among the entities consulted with respect to 
activities carried out by the Secretary of the Department of 
Homeland Security.
    [Text of S. 578 follows:]
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Inouye. In the current act, there is a definition 
of local governments which, as we all know, are political 
subdivisions of the States, but this definition of local 
government also includes Indian tribes, so one of the 
objectives of S. 578 is to remove Indian tribes from the 
definition of local government and instead to provide for a 
definition of tribal government. S. 578 also proposes to insert 
the term ``tribal government'' in each place it is appropriate 
to do so in the Homeland Security Act.
    Finally, based upon testimony received by this committee 
last year from a representative of the Department of Justice, 
this measure clarifies that for purposes of homeland security 
only. The Congress affirms and declares that the inherent 
sovereign authority of an Indian tribal government includes the 
authority to enforce and adjudicate violations of applicable 
criminal, civil and regulatory laws committed by any person on 
land under the jurisdiction of the Indian tribal government.
    It is this last section that appears to have generated some 
mischief by those who want to read the language as if it 
doesn't pertain to homeland security. They cite a parade of 
horribles in which the alleged tribal governments might engage 
under the authority of this act, including ``stripping several 
million U.S. citizens of their constitutional protections.'' 
They call it a ``breathtaking example of racial tyranny.'' I 
think it is important and prudent that we take a moment to 
understand the provision to which these outlandish comments are 
directed.
    Acts of terrorism or activities which threaten the national 
security are violations of Federal law. Put another way, if a 
person were to engage in an act of terrorism, they would be 
violating Federal law and they would be subject to prosecution 
in Federal courts, not a tribal court. Should tribal 
governments be able to stop, detain and arrest those who 
violate Federal law by committing acts of terrorism until such 
time as Federal authorities can take over or do those who 
reside in Indian country, be they Indian or non-Indian, want to 
have hours and sometimes possibly even days go by before 
Federal law enforcement officers or the FBI can travel from a 
city to a remote rural area in order to arrest those engaged in 
terrorism activities?
    We do not have to reach far back in our memories to recall 
the events of September 11 and to know that in most instances 
there will not be the luxury of time to respond in this 
fashion. That is why those who are experienced in law 
enforcement believe, as we do, that tribal governments must 
have the authority to enforce Federal law until such time as 
Federal law enforcement officers can assume responsibility. 
They will tell you that in many areas of Indian country, tribal 
governments are the only law enforcement presence and the only 
government capable of responding to threats of terrorism on a 
timely basis.
    One of the commentators whose opposition to this bill is 
widely advertised suggests that this bill will ``place this 
country under attack from within.'' I would remind one and all 
that in all the military actions and wars in which this Nation 
has been engaged in the last century and the beginning of this 
century, more Native people of the United States on a per 
capita basis have volunteered to serve in the Armed Forces of 
our Nation and placed themselves in harm's way than any other 
group of Americans.
    To suggest that tribal governments are terrorists or that 
citizens of this country are subject to attack by Native people 
is to me one of the most outrageous assertions I have ever 
heard. I hope this kind of inflammatory rhetoric will be seen 
for what it is. Yesterday the committee held a full day forum 
for tribal leaders and Federal agencies and I believe we 
learned a great deal about the critical infrastructure that is 
located in or near Indian country. It is far more extensive 
than our records would have indicated, so we are very grateful 
and gratified that this crucially important information was 
shared with the committee yesterday and that it will be made a 
part of the official record of this hearing.
    Members of Congress are all too familiar with the scare 
tactics that are sometimes employed in opposing legislation. 
That is why the information from yesterday's forum and the 
testimony received today, both oral and written, will serve 
such an important role in helping us all to focus on the real 
threats at hand because as the highest officials of our 
government have repeatedly stated, it is a matter of when 
another terrorist act is likely to take place; sadly, it is not 
a matter of if.
    With that, I would like to call upon the first panel of 
witnesses and welcome them to the committee. The first panel 
consists of: Thomas B. Heffelfinger, U.S. attorney, Minnesota, 
representing the U.S. Department of Justice; Terry Virden, 
director, BIA, Department of the Interior; Josh Filler, 
director, Office of State and Local Government Coordination, 
Department of Homeland Security; and William F. Raub, principal 
deputy assistant secretary, Office of Public Health Emergency 
Preparedness, Department of Health and Human Services. 
Gentlemen, welcome.
    May I first recognize U.S. Attorney Heffelfinger.

 STATEMENT OF THOMAS B. HEFFELFINGER, U.S. ATTORNEY, STATE OF 
       MINNESOTA, ON BEHALF OF THE DEPARTMENT OF JUSTICE

    Mr. Heffelfinger. Thank you, Senator Inouye.
    In addition to being the U.S. attorney for the State of 
Minnesota, I am also the chairman of the Attorneys General 
Advisory Committee, Subcommittee on Native American Issues. 
This is the subcommittee responsible for developing policy, for 
consideration and approval by the Attorney General related to 
effective law enforcement in Indian country.
    With the Attorney General's approval, the NAIS has 
identified terrorism as our number one priority. As you heard, 
Senator, and as the record made clear yesterday, more than 25 
tribes have land on or near the international borders or 
shorelines within the United States as part of our 
international borders. In addition, there are numerous 
potential terrorist targets located within Indian country that 
are a part of this country's national infrastructure. 
Therefore, it is our position that it is imperative that our 
national homeland security strategy include tribes in the 
planning process and in the provision of services relative to 
homeland security.
    The Homeland Security Act of 2002 describes tribes as 
``local governments'' along with cities and counties organized 
under State law. The U.S. Supreme Court precedent treats tribes 
as separate sovereign governments. Administration policies have 
afforded tribes sovereign status in accordance with this 
precedent. Tribal governments use their governing authority to 
provide public safety in Indian country both as to homeland 
security issues as well as general criminal issues.
    On a wide variety of public safety and criminal issues, the 
Federal Government consistently works directly with tribes on a 
government-to-government basis. This is consistent with recent 
proclamations by many Presidents including the November 12, 
2001 statement of President George W. Bush, ``My Administration 
will continue to work with tribal governments on a sovereign to 
sovereign basis.''
    Working directly with tribes to assist them in obtaining 
the necessary public safety resources and training and to 
conduct strategic planning for homeland security concerns is 
not only consistent with Supreme Court precedent and the 
direction of all recent Presidents, but also enhances the 
effectiveness of our homeland security preparation in these 
unique communities.
    As the Department of Justice continues our efforts to reach 
out to the tribes on these issues, I, on behalf of the 
Department, applaud the general goals of S. 578 to maximize the 
opportunities for the Federal Government to work with tribal 
governments in carrying out the activities needed to protect 
our Nation's homeland. Likewise, the Department looks forward 
to working with the committee to address some of the technical 
issues raised by the bill.
    As to section 13 of the bill to which you alluded in your 
introductory comments, Senator, section 13 of S. 578 is a 
legislative overturn of the Supreme Court decision in Oliphant 
v. Suquamish Tribe. Oliphant held that tribal courts do not 
have criminal jurisdiction over non-Indians. In the view of 
many, the Oliphant decision has created a gap in Indian country 
law enforcement and negatively impacts tribes' abilities to 
respond effectively to terrorist incidents and other crimes 
which may be committed by non-Indians in Indian country. 
However, overruling Oliphant in a broad and isolated manner 
could result in complicated legal and practical law enforcement 
issues such as those of due process concerns, double jeopardy, 
resources and appellate rights.
    Enacting section 13 prior to working through these 
complicated matters is premature and we do not believe that S. 
578 provides the best vehicle for doing so. In this connection, 
law enforcement in Indian country is primarily a Federal and 
tribal function. Those law enforcement officers who work in 
Indian country work hard to address the unique and sometimes 
confusing jurisdictional challenges associated with protecting 
the public on Indian reservations. As an example, in response 
to Oliphant's constraints, some tribal law enforcement agencies 
have obtained cross-commissions from State, local and Federal 
authorities to expand their authority to arrest non-Indian 
criminal suspects under State or Federal law. Unfortunately, 
such cooperative arrangements are not made in many 
jurisdictions due to various factors such as local political 
issues or concerns over civil liability. As a result, effective 
law enforcement over non-Indians who commit crimes in Indian 
country is not consistent from reservation to reservation.
    Given the law enforcement constraints imposed by the 
Oliphant decision, the question therefore becomes what can 
Congress do to improve homeland security in Indian country? 
Section 13 of S. 578 is an attempt to deal with the Oliphant 
issue head-on. In February 2003, the NAIS, which I chair, 
formed an Oliphant Working Group under the leadership of South 
Dakota U.S. Attorney Jim McMahon. In addition to other 
considerations, the working group studies section 13 
extensively. The group did not develop a position on whether or 
not it would eventually support such an Oliphant fix. However, 
the working group did decide that section 13 as currently 
written is too broad. The working group identified a number of 
concerns including due process issues that Congress may want to 
consider as it addresses this issue and which become 
increasingly important as one considers expanding tribal court 
jurisdiction in the face of Oliphant. These concerns include 
issues such as separation of powers, provision of defense 
counsel for indigent defendants, make up of jury pools which 
was one of the issues cited in the original Oliphant decisions 
and appellate and habeas corpus relief.
    A significant expansion of tribal court jurisdiction raises 
serious issues regarding protections of individual due process 
rights and this I know will be considered. Consideration must 
also be given to issues such as disparate tribal resources as 
one looks around the country, the impact of any mandate of 
legal obligations on the ability of the tribes to provide such 
legal protections, and the need for additional training not 
currently being provided or for additional experienced tribal 
judicial and law enforcement officers that would be required in 
response to such a significant change.
    Section 13 addresses ``the authority to enforce and 
adjudicate violations by any person.'' As such, the section 
expands the jurisdiction both for tribal law enforcement and 
for tribal courts. Homeland security concerns are primarily a 
law enforcement concern and not a tribal court concern. It is 
the ability of tribal law enforcement to investigate arrests 
and/or detain suspected terrorists that is at issue, not the 
ability of tribal courts to prosecute such individuals. It is 
highly unlikely that the Federal Government would defer Federal 
felony prosecution of terrorists in deference to tribal court 
misdemeanor prosecution. Therefore, consideration should be 
given to whether there are other options that can allow tribal 
law enforcement to be full partners in providing for a secure 
homeland while avoiding some of the adverse impact of a 
significant expansion of tribal court jurisdiction. These 
options include expanded use of ``cross commissions'' and of 
tribal law enforcement authority recognized under some district 
court and appellate court decisions to detain individuals who 
are suspected of violating State or Federal law.
    While section 13 might address some of the factors limiting 
the widespread use of these options, this section also raises 
issues not fully addressed in the proposed legislation and 
there are ways of expanding the use of these options. 
Therefore, the expansion of tribal jurisdiction reflected in 
section 13, we believe, should appropriately be considered as 
part of a comprehensive review and clarification of tribal 
court jurisdiction such as that we suggested to this committee 
last July in discussing the need for a comprehensive 
clarification of tribal court jurisdiction.
    We look forward to working with this committee on that and 
any other issues that the committee wishes. I want to thank you 
for the opportunity to address you and I look forward to 
standing for questions at the appropriate time.
    [Prepared statement of Mr. Heffelfinger appeatrs in 
appendix.]
    Senator Inouye. Thank you, very much.
    Now may I recognize Mr. Virden.

STATEMENT OF TERRY VIRDEN, DIRECTOR, BUREAU OF INDIAN AFFAIRS, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Virden. Thank you, Mr. Chairman, and thank you for the 
opportunity to present the views of the Department of the 
Interior on this very important bill to amend the Homeland 
Security Act of 2002.
    The Department supports the concept of maximizing 
opportunities for the Federal Government to work with tribal 
governments in carrying out the activities needed to protect 
our Nation's homeland.
    Indian country consists of 56 million acres of trust lands, 
approximately 25 tribes are located on or near international 
borders with Mexico and Canada, with additional tribes located 
on or near international waterways. Of particular note are the 
Tohono O'Odham Nation in Southern Arizona and the St. Regis 
Mohawk Nation in upstate New York. Both reservations include 
lands that cross the international borders and, therefore, have 
tribal members on either side of the border. Border tribes are 
faced with attempted illegal border crossings and trafficking 
of illicit contraband. Tribal law enforcement works in tandem 
with Federal, State and local law enforcement agencies on 
helping combat these illegal activities.
    Since September 11, 2001, our tribal law enforcement 
officers have been on alert and have worked with other law 
enforcement officers to protect our Canadian and Mexican 
borders as well as the waterways that are part of Indian 
country. Our principal responsibility of homeland security is 
domestic preparedness to prevent, respond to and recover from 
attack. Homeland security for tribes includes law enforcement, 
security and emergency management personnel, key components 
tribal governance must provide in protecting its members, 
residents and visitors. There is a need to have direct funding 
streams from the Department of Homeland Security for such 
activity.
    Tribal law enforcement can be vital in protecting our 
borders and waterways. In certain areas of the country, tribal 
emergency management may be the only agency able to respond to 
a terrorist threat or attack. Tribal public health can provide 
valuable expertise in confronting an outbreak of a deadly 
disease and tribal members may be the only citizens within 
miles to detect terrorist activity.
    S. 578 is an appropriate step in recognizing the importance 
of American Indians in protecting our homeland. Establishing 
the appropriate role for the tribes with the 50 States will 
facilitate protection of critical infrastructure and key assets 
in Indian country and bring to bear the leadership, expertise 
and dedication of Indian people.
    We are concerned, however, that Alaska Native villages and 
organizations are not included in the definition of Indian 
tribe. Alaska Native villages and organizations have been 
included in the definition of Indian tribe under laws including 
the Indian Self-Determination Act. We believe for this purpose 
they should be included in the definition of Indian tribe.
    This concludes my prepared statement and I also am 
available for questions later.
    [Prepared statement of Mr. Virden appears in appendix.]
    Senator Inouye. Thank you, very much, Mr. Virden.
    Now, may I call upon Mr. Filler.

 STATEMENT OF JOSH FILLER, DIRECTOR, OFFICE OF STATE AND LOCAL 
    GOVERNMENT COORDINATION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Filler. Thank you, Mr. Chairman.
    Good afternoon and thank you for the opportunity to appear 
before you today to discuss the Department of Homeland 
Security's views on S. 578. We support S. 578's goals and 
objectives of enhancing coordination and cooperation between 
the Department and tribal governments regarding homeland 
security.
    The Department of Homeland Security recognizes and 
appreciates the critical role the tribal governments play in 
enhancing our homeland security. With tribal lands adjacent to 
hundreds of miles of both our northern and southern land 
borders including readily accessible coastline and containing 
numerous pieces of critical infrastructure, tribal governments 
are essential partners in the work of the Department of 
Homeland Security. That is why the Department has created a 
position specifically for coordination with the tribes. The 
director for Tribal Coordination, who participated in panel 
discussions hosted by this committee yesterday, is here with me 
today.
    Since it was created, the Department of Homeland Security 
has been actively undertaking outreach to tribal interests to 
build the relationships necessary for successful coordination 
of homeland security activities within tribal lands. These 
efforts have included but are not limited to, the creation of a 
specific position as I mentioned before for tribal 
coordination. Through this office, American Indian tribes, 
Alaska Native villages, tribal organizations and associations 
have a dedicated day-to-day point of contact for tribal 
concerns.
    The U.S. Border Patrol has liaison officers at each sector 
and at headquarters specifically focused on tribal law 
enforcement coordination with their Native American 
counterparts. Coordination includes sharing training, 
intelligence, equipment and participating in joint operations. 
The Department has met and coordinated with numerous tribal 
governments regarding DHS functions, activities and the 
Department's programs.
    We are currently working with the National Congress of 
American Indians on tribal issues. We were pleased to attend 
the recent NCAI conference where DHS participated in a workshop 
on creating emergency preparedness plans. The workshop covered 
what resources are available from DHS, including training 
opportunities and emphasized the need for tribal emergency 
preparedness plans. We are participating with the National 
Native American Law Enforcement Association and are providing 
presenters for homeland security-related training at the 
upcoming annual training conference. The U.S. Border Patrol is 
providing specialized training seminars for this November 
conference as well as technical displays of current hardware 
being employed by the Border Patrol.
    DHS is also currently planning the second U.S. Border 
Patrol/Native American Border Security Conference. I believe it 
is tentatively scheduled for the first week in October of this 
year. The aim of this conference is to identify mechanisms to 
better the Patrol's working relationship with Native American 
law enforcement to further our shared goal of securing the 
Nation's borders.
    DHS is in discussion with other executive branch 
departments like those represented here today to ensure 
coordination of DHS missions in Indian country. We have been 
pleased to include tribes in the consultation process for 
upcoming discussions on the National Incident Management System 
as well as the National Response Plan, both of which are 
required by Homeland Security Presidential Directive No. 5.
    DHS is a participant in informal, interagency, Indian 
country working groups which includes the exchange of 
information and presentations on Indian country programs and 
program support. This is a very positive, ad hoc forum where 
Federal/Indian country representatives get together to exchange 
information and provide briefings on different programs.
    DHS, as you know, is a young department and we view these 
accomplishments simply as a good start to ensuring that tribal 
governments are truly integrated into the Department's efforts 
to better secure our borders, protect our critical 
infrastructure and to be prepared for a terrorist attack or 
natural disaster.
    As indicated earlier, we support S. 578's objective of 
improving the Department's coordination with tribal governments 
in the area of homeland security and we welcome the opportunity 
to work with the committee regarding the particulars of the 
bill.
    I thank you for your support of the Department and we would 
be happy to answer any questions you might have at the 
appropriate time.
    [Prepared statement of Mr. Filler appears in appendix.]
    Senator Inouye. Thank you very much, Mr. Filler.
    May I now recognize Dr. Raub.

   STATEMENT OF WILLIAM F. RAUB, PRINCIPAL DEPUTY ASSISTANT 
  SECRETARY, OFFICE OF PUBLIC HEALTH EMERGENCY PREPAREDNESS, 
            DEPARTMENT OF HEALTH AND HUMAN RESOURCES

    Mr. Raub. Thank you very much, Mr. Chairman. I am pleased 
to have the opportunity to make some remarks on behalf of the 
Department of Health and Human Services.
    When we use the term public health emergency preparedness, 
that is shorthand for readiness for bioterrorism, other 
outbreaks of infectious disease and other public health threats 
and emergencies. When we talk specifically about bioterrorism, 
the immutable fact is that by definition all terrorism is 
local. Therefore, however complex and widespread the event and 
incident ultimately may become, it begins in a particular place 
and therefore, State, local, and tribal readiness are very high 
priorities for us with respect to the way we direct our 
investments.
    To that end, we use the instrument of the cooperative 
agreement with all 50 of the States and certain other eligible 
entities to provide funding to enhance public health 
departments, hospitals and other health care entities. That is 
over and beyond our direct funding of the hospitals of the 
Indian Health Service. In fiscal year 2002, we provided 
approximately $1 billion through those cooperative agreements. 
In the current fiscal year, and we are amidst the reward and 
review process right now, we expect to award approximately $1.5 
billion in total.
    One of the major priorities of each of those awards is to 
ensure that we have a systematic involvement with all of the 
tribes in the planning and implementation of these programs. 
The implementation means that not only the flow of funds to the 
tribes as appropriate to achieve the statewide plan, but also 
the availability of services such as surveillance and 
epidemiologic response to ensure that the health needs of the 
tribes are met as systematically as the health needs of anyone 
else within those State borders.
    We involve our colleagues from the Indian Health Services 
in our review panels, we have an internal Bioterrorism Council 
of which the Director of the Indian Health Service is a member, 
and we have a strategic plan for the Department for 
bioterrorism that includes specific roles for the Indian Health 
Service.
    We look forward to continuing to develop these programs 
overall and strengthening the relationship and involvement with 
the Indian tribes.
    I appreciate the opportunity to be here today and will 
respond with our colleagues here to questions as best I can.
    [Prepared Statement of Mr. Raub appears in appendix.]
    Senator Inouye. I am deeply grateful to all of you for your 
testimony and I must say I am very much encouraged. If I may, I 
would like to ask a few questions.
    Mr. Heffelfinger, your concerns about chapter 13 I think 
have merit. Is your office willing to work with the committee 
in drafting language that would address the concerns you have 
raised?
    Mr. Heffelfinger. Yes; very much so, Senator. We believe 
this is an area that the Department of Justice and your 
committee should be working together on. It is a perfect 
vehicle for us to develop a comprehensive clarification of all 
of the confusing areas of tribal jurisdiction. We think this 
would enhance our ability to provide quality law enforcement 
both in the area of criminal misconduct as well as the area of 
homeland security and that they really cannot be separated.
    Senator Inouye. If I were smart, at this point I would say 
the meeting is adjourned. [Laughter.]
    I am most grateful for your offer to help us. I think the 
staff is prepared to work with you and come forth with a bill 
that would meet the needs of all the departments as well as the 
needs in Indian country. I think we can do that. So thank you 
very much, Mr. Heffelfinger.
    If I may ask, Mr. Virden, at yesterday's forum we heard 
something about the Conlee Dam, Grand Conlee Dam. I note that 
the Department of the Interior has jurisdiction over that. Has 
the Department undertaken any activities to secure Grand Conlee 
Dam?
    Mr. Virden. I'm hesitating.
    Senator Inouye. I am not trying to embarrass you but I just 
want to know the extent the problem we have.
    Mr. Virden. I understand. The Department has an extensive 
program of early warning systems that are mandated to be 
installed and I believe on most of our dams, we are there. I 
know, speaking for the BIA, we have installed in most of our 
high priority dams early warning systems.
    Senator Inouye. I suppose you would welcome some Indian 
assistance there?
    Mr. Virden. Yes; we would.
    Senator Inouye. I was very much gratified to hear that we 
have programs for training Indian tribes and tribal members to 
carryout these responsibilities, so I thank you very much.
    Mr. Filler, I am grateful that the Administration supports 
this measure. Are you also concerned about section 13?
    Mr. Filler. Senator, I'll be honest, I lack the expertise 
in the details to which that chapter refers, so I would defer.
    Senator Inouye. So your department would be satisfied if 
Justice and the committee can work out something out?
    Mr. Filler. I think we will work with the Justice 
Department and follow their lead and work with them on this 
issue.
    Senator Inouye. Do you have any problems with the 
definition of local government as it relates to Indian tribes?
    Mr. Filler. I think it is important that everyone be a part 
of the homeland security process. That includes tribes, the 
territories, local government, State government and obviously 
the Federal Government. Our vision is that you create a 
coordinated effort through statewide planning, not State 
planning but statewide planning, statewide planning, built from 
the bottom up, including the tribes, municipalities, counties, 
towns, parishes, so on and so forth. I think what is important 
is everyone has a seat at the table and that table be the place 
where the plan for spending homeland security dollars is 
developed. I think if we do that, the issue of State versus 
local or tribal becomes less of an issue. We have a 
responsibility at the Federal side to ensure that coordination 
is taking place.
    Senator Inouye. I was very much pleased with the assurance 
that your department will be funding programs to enhance the 
ability of Indian country to carryout this mission, but 
apparently the funds go through the States, don't they?
    Mr. Filler. Yes, sir.
    Senator Inouye. Can we get some report from you advising us 
as to how much Indian country is receiving for homeland 
security?
    Mr. Filler. Sure. We will go back to the States. They are 
required to file paperwork with us on all the funds they 
receive from the Department and we can make a request that they 
tell us exactly how much all of the tribes within the State are 
receiving.
    Senator Inouye. Recently, we were told that Secretary Ridge 
established a State and Local Advisory Committee to advise the 
Homeland Security Advisory Council but I note that this 
committee is made up of governors, legislators, mayors, city 
officials, county judges but no representatives from Indian 
country. Can we secure some sort of representation there?
    Mr. Filler. I will certainly go back and speak with the 
executive director of the Homeland Security Advisory Council 
and engage him on that issue.
    Senator Inouye. I thank you very much.
    Dr. Raub, the Indian Health Service has determined that 
$51.5 million is needed annually for tribal emergency medical 
services. Given the potential for terrorism and the threat in 
Indian country, what activities has the Department undertaken 
to inform Congress of the need for additional funding?
    Mr. Raub. Those matters are under consideration right now 
with respect to development of the fiscal year 2005 budget 
request. I expect one of the issues that will be joined further 
within the Department and between the Department and the Office 
of Management and Budget and ultimately our discussions with 
the Appropriations Committees will be the size and the 
orientation of that investment.
    Whatever we spend directly through the Indian Health 
Service with respect to terrorism is complemented by the funds 
I mentioned before that are sent out in the from of the 
cooperative agreements. In fact, in a few of the States, the 
State law allows funds from the cooperative agreement to 
directly supplement activities of the Indian Health Service. 
Other State laws preclude this. To the extent it is possible, 
we have tried to use every mechanism available.
    Senator Inouye. As a member of the Appropriations 
Committee, I can assure you we will do our best to support your 
request.
    Gentlemen, once again, I thank you very much for your 
participation. I am certain I speak for Indian country when I 
say that we feel very much encouraged and look forward to 
working with you, Mr. Heffelfinger.
    Mr. Heffelfinger. Thank you, Senator.
    Senator Inouye. Thank you, very much.
    Now, may I call on the second panel. It consists of the 
following: Roland E. Johnson, Governor, Pueblo of Laguna Pueblo 
of New Mexico; Audrey Bennett, president, Prairie Island Indian 
Community, Minnesota; Earl Old Person, chief and tribal council 
member, Blackfeet Tribal Business Council, Montana; Vivian 
Juan-Saunders, chairwoman, Tohono O'odham Nation, Arizona; and 
Alvin Windy Boy, chairman, Chippewa Cree Business Committee, 
Montana.
    I have been advised that President Bennett has to get on a 
plane right away, so may I call upon you first?

 STATEMENT OF AUDREY BENNETT, PRESIDENT, PRAIRIE ISLAND INDIAN 
                      COMMUNITY, MINNESOTA

    Ms. Bennett. Thank you, Mr. Chairman.
    Good afternoon. My name is Audrey Bennett. I am president 
of the Prairie Island Indian Community and I want to thank you 
for inviting me to testify today.
    I am here to offer this committee a perspective that is 
unique to our community, emblematic of the homeland security 
issue with which many tribal governments in this country must 
contend. For your reference, we have provided an aerial photo 
of Prairie Island which is located between the Mississippi and 
the Vermillion Rivers in the southeastern Minnesota about 50 
miles south and east of Minneapolis-St. Paul.
    Prairie Island is sacred land. Our people have lived there 
for countless generations. It is our home as well as our final 
resting place for our ancestors. As you can see, our 
reservation is bordered by a nuclear powerplant, a nuclear 
waste storage site, two nuclear reactors and 17 large storage 
casts filled with highly radioactive nuclear waste sits 600 
yards from our homes, church, community center, and business. 
Additional casts will be added in the coming years. Our 
community is the closest in the Nation to a nuclear powerplant 
and a nuclear waste storage site. Yet we have no special role 
in helping to protect these facilities or for that matter 
ourselves.
    For decades, well before terrorism became the issue that it 
is today, our tribe had to fight to be properly recognized by 
the State of Minnesota and our utility neighbor. In 1997, when 
the plant was evacuated after a steam generator leaked 
radiation into the atmosphere, no one bothered to inform our 
people of the incident. Most tribal members realized something 
was wrong only after witnessing numerous cars speeding away 
from the plant. Many of us wisely followed.
    Today, we are better prepared for a similar incident and we 
have reasonably cooperative relationships with the plant and 
the State. However, conventional emergency planning is simply 
inadequate for this age of catastrophic terrorism. The 
radiological exercises in which we participate are based on 
scenarios involving a slow leak of radiation into the 
atmosphere, not an intentional act of destruction. Currently 
our involvement in responding to such an event is as best ill-
defined. As I mentioned previously, we have no formal role 
whatsoever in helping to prevent an attack, an attack that 
would permanently devastate our community.
    Now, imagine being reminded of this vulnerability everytime 
you leave your home or look out your window. Imagine to this 
day of color coded warnings and credible threats, fearing the 
worse everytime an airplane flies by or a news helicopter 
hovers the neighboring nuclear plant. Imagine, and this 
happened just recently, driving down the road only to see 
military humvees, military personnel armed and stationed at 
your intersection without any explanation or notice. This is 
what we live with every day. We are uninformed. We are victims 
in waiting.
    Under the existing system, we also have little or no 
independent recourse should the worse occur. Instead, we are 
largely subject to State authority. It was evident recently 
when our community was affected by a major flooding and we had 
to go through the State to access Federal resources. Our tribal 
government is ultimately responsible for the health and safety 
of as many as 10,000 people, including our tribal members, 
employees and visitors. Many thousands more live just beyond 
our reservation. Their fate along with ours is tied to the 
safe, secure operation of a nuclear power plant, a reality not 
lost on most Minnesotans.
    According to a January 2003 poll, nearly 60 percent of 
Minnesotans say they are concerned with that the State's 
nuclear power plants could be targeted for terrorism, and 54 
percent say they would need to live at least 50 miles from the 
nuclear power plant to feel safe. Having lived our lives in the 
shadow of the nuclear facility, we share their concern. We 
share their concern because we know more can be done to ensure 
our safety.
    To start, we need to be involved in emergency planning and 
terrorism prevention initiatives. We need the resources for 
staff to help and maintain our readiness. We have the most to 
lose in an attack and we cannot afford not to be prepared. We 
also need access to information. We should be notified of 
events before reading about them in the newspapers or 
experiencing them firsthand. There should be a resource within 
the Department of Homeland Security that is committed to 
helping our community be informed and prepared.
    Reservation lands located along our Nation's borders and 
near critical infrastructures such as dams, hydroelectric 
facilities and nuclear powerplants are vulnerable. Tribal 
governments should be given the same mandate and resources 
needed to keep these areas safe. Furthermore, in keeping with 
the Federal Government's trust responsibility to tribes, the 
Department of Homeland Security should be required to deal with 
tribes on a government-to-government basis, just as any other 
Federal agency would.
    Clearly if it is going to be effective, the Homeland 
Security Act must involve tribes and be inclusive of tribe 
interests. It should recognize the needs of tribal governments 
and demand the vigilance of us that is expected from others 
charged with protecting this Nation.
    On behalf of our community council and tribe, I thank you 
again for this opportunity to testify here today. Each of us 
has an obligation as Americans to do our part to protect the 
homeland as our ancestors before us protected Mother Earth, it 
is up to us to protect it for generations not here yet. We 
pledge to do our part, the Prairie Island Community, and to 
cooperate in this matter and welcome the opportunity to do our 
part.
    Thank you, Mr. Chairman.
    [Prepared statement of Ms. Bennett appears in appendix.]
    Senator Inouye. Thank you very much, President Bennett.
    Since you will be leaving us and I hope you don't miss the 
plane, do you believe the passage of this measure would in some 
way help your situation?
    Ms. Bennett. I believe it would, Mr. Chairman. Again, it is 
something we always have to keep fighting for as tribes, to be 
included in languages that affect us. I think by inserting 
``tribes and reservations,'' it is very important, especially 
with the threat of terrorism that we know today and also to 
have the same representation as governors, mayors and local 
units of city people. Tribes should also be on any of those 
councils and committees to be a part, to keep information 
flowing and communication moving forward to find solutions 
everybody can live with. I think it is very important.
    Senator Inouye. We will do our best, Madam President.
    Ms. Bennett. Thank you.
    Senator Inouye. I hope you make the plane.
    Ms. Bennett. Thank you.
    Senator Inouye. May I now recognize Governor Johnson.

   STATEMENT OF ROLAND E. JOHNSON, GOVERNOR, PUEBLO OF LAGUNA

    Mr. Johnson. Thank you very much, Mr. Chairman.
    The Pueblo of Laguna is most appreciative of the 
committee's invitation to provide testimony in support of S. 
578. The Pueblo of Laguna supports S. 578 because it ensures 
consultation and coordination with and the involvement and 
inclusion of Indian tribes in the mission of the Homeland 
Security Department. It ensures that tribal governments 
participate fully in the protection of the homeland of the 
United States, including tribal homelands. These purposes are 
carried out in a direct relationship with tribal governments 
and not as subdivisions of States.
    The Pueblo of Laguna needs S. 578 to address three things. 
First, to be capable partners, the Pueblo must be well prepared 
to handle emergency situations. Second, it must be recognized 
as the legitimate governmental authority responsible for 
reservation health, safety and welfare. Third, it must have the 
resources to ensure that all people in the Laguna Pueblo 
homeland receive timely and expert protection and assistance.
    Laguna is at the crossroads of vulnerability because it is 
located along a major east/west Interstate 40 corridor where a 
major accident could potentially cripple the rest of the 
Nation. Laguna's 560,000 acres of reservation are situated in 
four counties. The Pueblo's six villages are located 
approximately 45 miles west of Albuquerque and 25 miles east of 
the community of Grants, New Mexico.
    Laguna has over 8,000 members, making it one of the more 
populated Pueblo areas in New Mexico. The Burlington Northern 
and Santa Fe Railroad lines travel approximately 40 miles 
across our reservation. In addition, both the El Paso Natural 
Gas Company and Transwestern Pipeline Company have high 
pressure, interstate gas lines that also cross our reservation. 
All routes and pipelines converge within a 1-mile radius of 
each other near the Laguna Industries, a manufacturing facility 
whose primary customer is the Department of Defense. These 
pipelines are also located in very close proximity to many 
homes on the reservation. Other jurisdictions are far away. 
Laguna must therefore be prepared to serve as the first 
responder.
    Laguna shares vulnerability with neighbors and the State 
because of many defense and energy related facilities that are 
located in the State. The Waste Isolation Pilot Project is 
located in the southern part of the State of New Mexico. 
Interstate Highway 40 is the primary transportation route for 
shipment of nuclear waste from sites in Nevada to the site 
southern New Mexico. Other facilities include the Sandia 
National Laboratories, the Kirkland Air Force Base, the White 
Sands Missile Range and the Los Alamos National Laboratory. I 
might mention here that waste from the Los Alamos National 
Laboratory is transported across a State road which also 
crosses the lands of several of the Northern Pueblo in the 
State of New Mexico, including the Pueblos of San Ildefonso and 
the Pueblo of Pojoaque.
    On this past Memorial Day, we had an incident occur at 
Laguna which really tested our state of preparedness to respond 
to emergency situations. At about 4:15 p.m., 13 cars of a 49-
car freight train derailed at Laguna Pueblo and forced and 
evacuation of a sizable area of the reservation. The westbound 
Burlington Northern Santa Fe Railroad company was at first 
reported to be carrying some hazardous materials. Although no 
one was seriously injured in the accident, some 500 people had 
to be evacuated from the area where the train derailed and 
where approximately 80 family homes, schools, tribal government 
offices are situated. Thereafter, the train tracks were closed 
in both directions for over 24 hours.
    Laguna's response to the situation resulted in both of 
Laguna's firetrucks with full crews having to respond to the 
situation, all four of its police department cruisers, with 
almost all the department law enforcement personnel, Laguna's 
two ambulances and medical workers, Laguna's hazardous 
materials response teams, emergency equipment and personnel 
from adjacent non-Indian communities also responded after 
Laguna was first on the scene.
    One month before this incident took place, Laguna had 
engaged in a hazardous materials spill exercise based on a mock 
train derailment. This exercise helped provide a better 
organized response to the real derailment. Deficiencies were 
revealed, lessons were learned from both situations. The 
lessons learned in both situations are quite revealing.
    During the actual derailment, five other communities were 
left unprotected for lengthy periods of time. No one knew just 
what was on the train or which car might contain dangerous 
materials. We need to establish clear command systems to 
provide on-site decisionmaking leadership. We realized we had 
insufficient facilities for use as a central command post. 
There were insufficient communications systems to the point 
where private cell phones had to be used to coordinate many of 
the activities. We currently have no efficient way to warn our 
community of impending hazards.
    My point here is that approximately 85 trains pass through 
the Laguna Pueblo each day and the potential for disaster is 
ever present because they do carry hazardous materials 
periodically. We need adequate resources to address those 
disasters when they occur. Through proper inclusion of tribes 
in homeland security efforts, we hope that S. 578 will better 
facilitate providing information and assistance to us directly. 
We also want to benefit from the financial and other assistance 
programs of the Homeland Security Department to assure that we 
have adequate planning, training and equipment and have an 
improved ability to coordinate and distribute warnings and 
other public information.
    The second purpose of S. 578 is to recognize tribal 
governments as participants in securing the United States 
homeland. Such participation requires us to be alert, ready and 
able to respond to terrorist activities that are dangerous to 
human life, violate criminal laws, are intended to intimidate 
or coerce a civilian population or their governments or are 
intended to affect the conduct of government by mass 
destruction, assassination or kidnapping. Tribes must be able 
to investigate, inspect, search, rescue, evacuate, medically 
treat and suppress fires.
    The tribal government must also make sure that governmental 
authorities are in place to guide all these activities and that 
the activities are conducted in a manner that is cognizant of 
human rights and dignity. The Pueblo Government is also the 
only entity with authority to enter into intergovernmental 
agreements, best practices and other mechanisms to share and 
coordinate with State and local governments. This is the only 
way to ensure that tribal, State and local governments together 
complete the web of comprehensive, defensive, protection and 
response necessary for all citizens wherever they are to 
receive the care and services they need. None of us can do it 
alone.
    Determinations assigning jurisdiction between Federal, 
State and tribal forums can be very complex and confusing. 
Clarification is needed when the defense and protection of 
people, places, and infrastructures are at stake. Emergency 
action can not linger in order to assess who can be detained, 
medically treated, evacuated or whose premises can be 
inspected.
    Section 13 of S. 578 provides this clarification by 
applying concurrently Federal and tribal law in the context of 
homeland security and it eliminates the confusing aspects of 
Federal common law. This provision makes use of existing 
applicable laws which are already, for the most part, Federal 
and tribal law.
    Laguna needs resources to pay for the cost of providing 
comprehensive health and safety protection and assistance. 
Federal funds will help but they are limited. States, counties 
and cities can raise revenue to support police, fire, medical, 
emergency, and other services. Laguna has a possessory tax to 
do this but the validity of the tax has come into question 
because of two Supreme Court cases, Strait v. A-1 Contractors, 
Adkinson Trading Company v. Shirley. Laguna responded to the 
BNSF train wreck with full ability and resources but the 
railroad now asserts that these cases would allow them not to 
pay the tax that Laguna uses to provide essential governmental 
services when needed. We assert that this is unconscionable and 
wrong. Congress and Federal agencies have long encouraged 
tribal governmental and economic self determination but now the 
Judicial Branch is crippling exercise of this determination by 
judicial fiat.
    Every other government in this country is allowed to engage 
in the basis governmental function of raising revenues through 
taxation within their physical boundaries to provide the kinds 
of services that we have been talking about and yet Indian 
tribes are being denied the same opportunity.
    Laguna requests amendments to S. 578 that would treat 
tribal governments in a manner similar to States for the 
purposes of regulation and taxation to provide health, safety 
and welfare services on the reservation. Laguna also requests 
these amendments to ensure that Indian country includes all fee 
lands and rights of way, no matter who owns them within the 
exterior boundaries of all Indian reservations and the Pueblo 
land grants. To address this matter, the Pueblo of Laguna has 
included in its advanced testimony language to be inserted into 
S. 578. I refer you to page 8 of the advance testimony of which 
you have copies.
    S. 578 and the changes we recommend would greatly enhance 
the ability of the Pueblo and other Indian tribes to be 
prepared for emergencies and terrorism, to provide the 
leadership and authorities necessary to work effectively on the 
reservation and with States, counties and cities, and to have 
the funding and revenue necessary to protect residents, 
visitors, businesses and critical transportation and 
infrastructure systems and assets. After all, business 
activities that are conducted on the reservation benefit from 
the health, safety and welfare services that are provided by 
our governments.
    I appreciate this opportunity to present my testimony.
    [Prepared statement of Mr. Johnson appears in appendix.]
    Senator Inouye. Thank you very much, Governor Johnson.
    Now, may I call upon the distinguished Chief Old Person.

STATEMENT OF EARL OLD PERSON, CHIEF AND TRIBAL COUNCIL MEMBER, 
           BLACKFEET TRIBAL BUSINESS COUNCIL, MONTANA

    Mr. Old Person. Thank you, Honorable Senator.
    I certainly appreciate this chance to be able to come 
before your committee and express our concerns on the homeland 
security. I have a prepared statement but I do want to make 
just a general statement.
    Senator Inouye. It will be made a part of the record, sir.
    Mr. Old Person. Last fall and earlier this year, I attended 
some meetings pertaining to the homeland security. At that 
time, I thought we were going to have a great involvement in 
this particular act that was taking place. It seemed less all 
the time, knowing more about it. I began to wonder how far it 
was going to go and how much involvement we, as Indian tribes, 
were going to have.
    The reason the Blackfeet people are very concerned is we 
have three border crossings that come into the reservation. The 
fourth crossing is just off the reservation to the east. There 
is traffic going back and forth all year long. In fact, other 
Indian people go through these crossings. We sometimes have 
problems going across. We have been working with this for many 
years now, trying to help the border crossing people. How can 
we help make it easier for people to have access or go into 
Canada or for people to come into the United States through our 
reservation. They have been very cooperative and we try to 
cooperate with them as much as we could.
    Within Canada, we have three tribes that are the same with 
the Blackfeet. We were all together at one time. It is known as 
the Blackfeet Confederacy. Recently we had a meeting in Canada 
regarding the border crossing. Again, this homeland security 
was talked about at that time, what we were doing and how we 
were involved. We couldn't really give them the kind of 
involvement we were having with homeland security.
    Ms. Johnson and Roland Johnson practically hit every area, 
the reasons we are here saying we want to be a part of this, 
that the Indian tribes want to be recognized because these are 
our homelands, the reservation. We are not just trying to help 
protect these homelands but also to help protect other lands 
adjacent and the whole United States. I have never known our 
young men and young women to refuse going into the service, 
going abroad into the combat fields and we know we have been 
involved in these kinds of things that concern our people that 
could cause problems, that could damage the kinds of things our 
people hope to continue.
    I was here during 911. I saw what took place and that is 
why I was concerned. I know other tribal people were here. We 
are very concerned about what took place. These are the kinds 
of things we want to help protect. As Indian people on the 
reservations today, we are having problems in many ways. Our 
resources are not that great that we can outright begin to deal 
with things and begin to solve things. That is why we are in 
need of help. We are in need of help to get together and help 
with these kinds of programs that are coming into effect so we 
can be a part of them and help ensure there is going to be 
protection for our people.
    We have a lot of problems, it is true. We have law 
enforcement we are trying to upgrade but it takes resources to 
do it. During my course of leadership, which goes way back, I 
have stressed the fact that in our homelands, our land and our 
law enforcement, law and order, is the backbone of our 
homelands. If we don't have the land base, if we don't have the 
law and order, then we don't have anything. That is why we are 
very concerned. We have different entities within our law 
enforcement. We have the Bureau of Indian Affairs, FBI, our 
tribal law enforcement. They are trying to do things in 
cooperation on how we can best deal with the things that 
happen. Our young people are at stake today. We need protection 
for them, we need to find a way to help them find ways to help 
with the situation so they can begin to understand they are 
just as important, that they can help us to try to solve some 
of the things we are concerned about.
    So today I certainly would appreciate if people with the go 
sign would include the tribes with this particular bill. It is 
going to help our people, help our country, help everyone 
concerned. Right now, people back home are concerned about what 
is going on in Iraq and in countries abroad because we do have 
people over there. So whatever we can do to come together, this 
is our country. We are going to be here. No one is going to 
leave. That is why we are trying to protect it. I know through 
that joint effort we can put together, those people that want 
to see things go otherwise, need to understand they are going 
to be here too. Anything that affects us is going to affect 
them the same.
    That is what we are trying to protect today. I hope this 
particular bill, everybody comes together and let it go 
through, let our answers be to where we can better understand 
one another and we know we can work together and there is 
protection that is going to help our people.
    I see that within the bill and everything set forth. It 
addresses a lot of things, even to the Public Health Service, 
the Indian Health Service. We need those people, we need that 
help.
    I appreciate your having me here to testify and to say the 
things I'm concerned about because we are concerned. The beef 
producers in Canada came to us trying to get us help them to 
work out things if we had that mad cow disease that is 
affecting them. They are trying to work something out even with 
the Blackfeet Tribe. These kinds of things we know about. If 
they need our help, how can we do it? We can do it if we are 
given the resources and the kinds of things to do it.
    I appreciate your having me.
    [Prepared statement of Mr. Old Person appears in appendix.]
    Senator Inouye. Thank you very much, Chief Old Person.
    Now, may I recognize Chairwoman Juan-Sanders.

STATEMENT OF VIVIAN JUAN-SAUNDERS, CHAIRPERSON, TOHONO O'ODHAM 
                       NATION OF ARIZONA

    Ms. Juan-Saunders. I'd like to thank you for this 
opportunity to testify on this important matter impacting the 
Tohono O'odham Nation
    The Tohono O'odham Nation is located in southern Arizona 
and is comprised of 2.8 million acres. We have a tribal 
enrollment of 28,000 enrolled members and approximately 10,000 
reside on the Nation.
    Prior to contact, the aboriginal land base of the Tohono 
O'odham Nation extended south to the Gulf of California, east 
to the San Pedro River, north to the Gila River and west to the 
Colorado River. In 1848, the Treaty of Guadalupe-Hidalgo ended 
the war between the United States and Mexico and it placed the 
first southern boundary at the Gila River and that placed all 
of our tribal members in Mexico. Six years later through the 
Gadsden Purchase of 1854, the United States and Mexico further 
defined the southern boundary and placed it at its present 
location. Consequently, that cut into the heart of the 
aboriginal lands of our people and today we have 75 miles of 
the international boundary which is adjacent to our reservation 
lands.
    On behalf of the Tohono O'odham Nation, we feel that S. 578 
are important tribal amendments to the Homeland Security Act of 
2002. The amendments will recognize the important role that 
tribal governments play in defense of our homeland and will 
help in deterring illegal activities on the Nation's lands.
    The Homeland Security Act of 2002 is very comprehensive but 
it is incomplete because it fails to include tribal governments 
as eligible entities entitled to participate in Department of 
Homeland Security implementation. In the act, tribal 
governments are placed in the local government category, a 
designation for counties and municipalities. Our understanding 
of the National Homeland Security Strategy is one, to prevent 
terrorist attacks; second, reduce our homeland vulnerability to 
terrorism; and third, minimize the damage and recover from the 
attacks that do occur.
    In reducing the vulnerability to terrorism, the Federal 
Government must not and cannot ignore the fact that 25 tribal 
governments have land located on or near Canada and Mexico. For 
the Tohono O'odham Nation due to our geographic location, we 
are at the forefront. Please consider the fact that our tribal 
police has stretched its resources to the limit and now spends 
half of their tribal budget, an average of $2.5 to $3 million 
annually in response to border related incidents. On an average 
day, our police officers spend 60 percent of his or her time 
working on border-related issues.
    In 1999, our officers assisted the Border Patrol with 100 
apprehensions per month and in 2002, our tribal police officers 
recorded 6,000 undocumented immigrants detained pending U.S. 
Border Patrol pick-up. In 2002 and 2003, 1,500 undocumented 
immigrants crossed our lands every day and they are not just 
coming from Mexico; they are coming from Central America, 
Guatemala, Honduras and any foreign country for that matter. 
Illegal narcotics seizures have more than doubled in the last 3 
years to over 65,000 pounds in 2002 and in 2003, we have had 49 
undocumented immigrants die on our reservation lands. Our 
tribal police pays for autopsies at $1,400 per body.
    In Arizona, these types of statistics would require a state 
of emergency. Currently it is unfortunate that these statistics 
have brought members of Congress and members of Federal 
agencies and State agencies and State representatives to the 
international boundary adjacent to our lands. However, we need 
to take the next step in providing resources to address these 
issues.
    At our western boundary, we have the Barry Goldwater 
military base which is an important note as we discuss 
terrorism and likely targets. The Indian Health Service also 
spent $500,000 last year for health care for undocumented 
immigrants. Health care to our tribal members has been 
seriously compromised. We don't get reimbursed for the dollars 
spent on foreigners.
    We have made a few dents in these problems. For example, a 
visit by the Washington, DC Homeland Security 
Telecommunications and Wireless staff member resulted in a 
$26,000 piece of equipment to allow for operability amongst our 
tribal law enforcement and certain units of Department of 
Homeland Security like Customs, Border Patrol and local county 
law enforcement. It allows them to communicate with one 
another. We also received a set of night vision goggles. This 
is the extent of the assistance. Communications is still an 
issue due to the potential security breach due to airways that 
do not stop at the border.
    We also participate in the Arizona/Mexico Commission which 
allows us to coordinate our planning efforts in the event of 
bioterrorism. We are in direct communications and have 
scheduled one on one meetings with our health counterparts in 
the State of Senora, Mexico to collaborate our efforts.
    This year, our Chief of Police by exercising our tribal 
sovereignty, accompanied the U.S. attorney to Mexico City to 
begin discussions with their law enforcement counterparts in 
Mexico regarding collaboration efforts.
    The issues we bring today are the lack of government to 
government consultation with the Tohono O'odham Nation 
regarding the restructuring of Federal law enforcement entities 
that have functioned on the Tohono O'odham Nation for over 20 
years. We believe that since 2002 with the Federal policies 
regarding the restructuring of the Department of Homeland 
Security, we were never consulted about the restructuring and 
how that would impact the Tohono O'odham Nation. U.S. Customs 
has operated on the Tohono O'odham Nation since 1985 and Border 
Patrol for 20 years.
    One of the concerns we have is the transfer of an elite 
unit known as the Shadow Wolves which has 21 Native Americans 
whose primary focus was drug interdiction. Now they have been 
transferred to Customs and Border Patrol who have a different 
mission with regard to immigration. While the GHS has stressed 
the mission in terms of the Shadow Wolves will not change, we 
still remain cautious. Some of our tribal members are Customs 
agents.
    Because of the lack of consultation and the restructuring, 
the Tohono O'odham Nation took a formal position on Federal 
activities and functions on the Nation. We requested and 
demanded respect for government to government consultation, 
respect for our people, respect for our lands and respect for 
sacred sites.
    In order for us to be eligible for equipment and training, 
we must lobby local counties. In June, I approached the Arizona 
Director for Homeland Security when they announced that $3 
million was available for Pima County for homeland security 
efforts. I asked how much of the $3 million would come to the 
Tohono O'odham Nation and the response was none. When I asked 
how to access the funds, the response was we would have to 
lobby the Pima County Board of Supervisors for funding.
    The Tohono O'odham Nation is in three counties, Pinal, Pima 
and Maricopa. We do not have the staff nor the resources to 
send our people to three different planning sessions for 
emergency preparedness. We request the funds come directly to 
the Tohono O'odham Nation.
    I would just like to conclude by saying that terrorists 
don't distinguish between jurisdictions and people. That is our 
concern. The Tohono O'odham Nation is at the forefront already. 
We already detain foreigners as they come through our Nation 
while we await Federal entities. It is important for us to 
continue to have the authority necessary.
    Our common goal is national security and tribal governments 
must be at the table. We believe that the tribal amendments to 
S. 578 will allow us to participate in the Department of 
Homeland Security activities including information analysis and 
infrastructure protection, science and technology, the 
Directorate of Boarder and Transportation Security and 
emergency preparedness and response. Passing this legislation 
together with better communication and sharing of ideas, 
coupled with direct Federal funding for manpower and resource 
support are effective first steps to deterring these activities 
on the Nation's lands.
    By working together and continuing to identify and 
implement solutions, we can better protect U.S. interests and 
enhance government to government relations.
    Thank you.
    [Prepared statement of Ms. Juan-Saunders appears in 
appendix.]
    Senator Inouye. Thank you very much, Chairwoman Juan- 
Saunders.
    Now may I call upon Chairman Windy Boy.

  STATEMENT OF HON. ALVIN WINDY BOY, CHAIRMAN, CHIPPEWA CREE 
                 BUSINESS COMMITTEE OF MONTANA

    Mr. Windy Boy. Good afternoon, Senator.
    I serve as chairman of the Chippewa Cree Tribe. I am an 
advocate for Indian issues, especially when the issue impacts 
our government to government relationship with the United 
States of America and our right to tribal self determination 
and self governance on our reservations.
    Today, I am here to support the passage of S. 578 which 
allows tribal governments to actively participate in our 
national strategy to combat terrorism and to protect our tribal 
members and tribal homelands.
    Mr. Old Person mentioned agriculture. In the great State of 
Montana, agriculture is the primary source of income. In 
Montana, we have 3.1 million head of cattle, Indian ranchers 
are 26.5 percent owners of those cattle, so the industry also 
affects Indian country on the seven reservations.
    If Indian tribes aren't a part of the national strategy, it 
would leave a huge void in our national security plan. As 
mentioned earlier, we are patriotic people. Our people 
certainly have paid the ultimate price for freedom. Now our 
governments must be involved in retaining that freedom, freedom 
to accomplish the national objectives of the homeland security 
plan such as border security, the protection of critical 
infrastructure on Indian lands, integrated law enforcement and 
emergency response and medical capacity planning and 
implementation.
    In support of S. 578, I'd like to share with the committee 
members an experience my tribe had with border security, tribal 
court jurisdiction over our homelands and the need to access 
homeland security funding to enhance our ability as first 
responders and for the protection of our infrastructure.
    Last summer my tribe had a horrifying experience with an 
across the boarder abduction of tribal children into Canada. 
Our inability to do anything was a most frustrating experience. 
Upon learning that our tribal children were abducted and taken 
across the border to Canada which is approximately 50 miles 
from the reservation in extreme, north central Montana, we 
contacted all the Federal and State law enforcement agencies 
for assistance and no one could help us. It was outside the 
jurisdiction of every Federal and State entity. The FBI did not 
have the jurisdiction because of the international border 
crossings. The State of Montana couldn't help us because it was 
out of their purview. Finally, we contacted the State 
Department here in Washington, DC and they referred us to the 
Child Abduction Bureau. They gave us sound advice but couldn't 
do anything to get our tribal children back to the United 
States and onto our reservation.
    Where they lived, every governmental agency we spoke said 
because we are an Indian tribe, they couldn't help us and 
didn't understand tribal jurisdiction. Basically, we were on 
our own.
    As a self-governance tribe, we are used to taking charge 
and performing Federal functions to the best of our ability 
while maximizing the resources we have access to. With the 
limited resources available to us, we charged the abductor in 
tribal court for abduction or kidnapping, which is a class III 
offense in our tribal law and order code, punishable for up to 
6 months incarceration and a $500-fine and immediately issued 
an arrest warrant.
    We knew the service of process for the arrest warrant 
across the border would be a big problem because both State and 
Federal authorities couldn't help us. This was as far as we 
could go. Everything at that time came to a standstill. 
Finally, after weeks of trying to get assistance and access 
governmental resources to help us locate and return those 
children, we contacted a barrister in the Canadian justice 
system. My tribe spent approximately $15,000 to $20,000 to hire 
a Canadian attorney to represent us in the Canadian judicial 
system to locate our children and return them to Rocky Boy in 
the United States.
    After several months of agonizing hearings and countless 
phone calls, we were successful in getting our tribal children 
back in the United States and home on our reservations.
    This is an experience I will never forget and have vowed 
not to go through such an ordeal again. The helplessness and 
lack of coordinated resources is a shame in this day and age 
and we can't allow this type of void in jurisdiction to carry 
over into the fight against terrorism.
    Our ability to access direct governmental resources and to 
do so on a government to government basis in order to provide 
better border security for our tribal homelands is imperative. 
Today, timing is critical. We must have the ability to 
immediately access and evaluate any situation we are confronted 
with, especially when the protection of our homelands and 
members is at issue.
    All Indian tribes, especially the tribes bordering 
international borders, need to be a part of the comprehensive 
maintenance of the homeland security of the United States. We 
already have the tribal laws, the tribal court system, law 
enforcement personnel and governmental infrastructure. What we 
need is the ability to work together as Mr. Old Person 
mentioned and coordinate with our Federal counterparts and have 
access to the various resources available to all agencies 
involved with law enforcement and border security.
    It is my hope that S. 578 will assist us in strengthening 
our ability to deal with those who intrude on our lands for the 
purpose of committing terrorist actions. My tribe, like many 
others, is not immune to drug traffic. There were several 
Mexican nationals arrested for pedalling drugs on Rocky Boy 
only to have them deported and in a very short time, back in 
Rocky Boy.
    We have created expulsion orders for them to stay off the 
reservation but if it is that easy for them to come onto a 
little reservation in north central Montana, they have the 
whole country. Without S. 578, there is a void and we are 
limited in our ability to protect our homelands, our resources 
and our people from these relatively new threats to our health, 
safety and welfare.
    In support of section 13 of the act which supports our 
ability to exercise jurisdiction over any terrorists entering 
our lands, closing the current jurisdictional gap is imperative 
to protecting our homelands. We currently exercise as much 
jurisdiction over our lands that the law allows but there are 
jurisdictional gaps that cannot be allowed to continue unless 
we want Indian reservations to become the points of entry and 
activity for terrorist cells. Section 13 will allow us to close 
those jurisdictional gaps and to be more responsive to 
everyone, tribal and non-tribal, within our jurisdiction.
    In terms of law enforcement and judicial capabilities, we 
realize it is limited for purposes of the act and should not be 
viewed as an access to the broad expansion of tribal 
jurisdiction. The Federal authorities have been extremely 
helpful with certain law enforcement cases but they are 
overburdened. They cover several reservations in our area as 
well as other Federal cases off the reservation as well.
    Tribes can help offset their enormous load and work 
together in a more direct capacity than we currently do. We can 
perform law enforcement and judicial duties in a limited 
capacity. Section 13 will allow us to work together in a true 
government to government relationship and to jointly utilize 
our resources to get the job done expeditiously and more 
thoroughly.
    Unless you have committed some sort of terrorist criminal 
act as defined in the Homeland Security Act of 2002 within our 
reservation's boundaries, you have nothing to fear from the 
enactment of S. 578. Every American should be supporting this 
effort to work together to make the reservation environment as 
safe as the off reservation environment. The effort to combat 
terrorism cannot be a game plan full of loopholes.
    In addition to law enforcement on reservations, my 
background is in law enforcement but as far as local law 
enforcement, I find we are not to capacity as the Federal 
system is. Our current funding level certainly needs to be 
beefed up, particularly on reservations with large land bases.
    With that, Senator, thank you. I would be glad to answer 
any questions.
    [Prepared statement of Mr. Windy Boy appears in appendix.]
    Senator Inouye. Thank you very much, Chairman.
    Governor, when the Memorial Day train derailment happened 
and you were informed, did you hesitate before you gave 
assistance?
    Mr. Johnson. No; we responded immediately.
    Senator Inouye. The train company was not grateful for 
that?
    Mr. Johnson. Eventually, they did acknowledge our response 
and thanked us for the response we made but we had people on-
site within a matter of minutes after the incident occurred.
    Senator Inouye. But they do not want to pay for it?
    Mr. Johnson. Apparently not.
    Senator Inouye. We hope this measure will in some small way 
be helpful to you.
    Mr. Johnson. It will help us, Senator.
    Senator Inouye. Chief Old Person, we have been told that 
BIA has decreased the number of law enforcement officers 
protecting the northern border of the reservation that is on 
the Canadian border. Is that correct?
    Mr. Old Person. No; right now we are having some problems 
but we are trying to come together at this time to work this 
out, the BIA, the tribal law enforcement.
    Senator Inouye. So you are trying to work this out now?
    Mr. Old Person. We are trying to work it out right now.
    Senator Inouye. I hope they will increase their presence 
there.
    Do you have the same sort of problem that Chief Windy Boy 
has with his tribe?
    Mr. Old Person. Yes; we all have this.
    Senator Inouye. Drugs also?
    Mr. Old Person. Drugs. That is why I said our young people 
are being affected. We are trying to get them to realize that 
they need to be a part of what we are trying to do and that we 
are trying to help them. So they are very much affected.
    Senator Inouye. You said you support S. 578?
    Mr. Old Person. We certainly do.
    Senator Inouye. We will try to do our very best, sir.
    Mr. Old Person. Thank you.
    Senator Inouye. Chairwoman Juan-Saunders, you testified 
your police department spends about $3 million annually to 
respond to border related incidents. How do you pay for this?
    Ms. Juan-Saunders. Through tribal dollars.
    Senator Inouye. And there are no Federal funds for this?
    Ms. Juan-Saunders. No; there is no reimbursement. We have 
made attempts and we bear the cost. We have over 70 tribal 
police officers and a seven-member investigative unit.
    Senator Inouye. With the assurance provided during the 
first panel to share Federal funds with you, I hope they will 
recognize your problem. Have you requested reimbursement?
    Ms. Juan-Saunders. Yes; we have and no response.
    Senator Inouye. No response?
    Ms. Juan-Saunders. No.
    Senator Inouye. Can you send us a copy of your 
communication?
    Ms. Juan-Saunders. Yes; in the audience, we have our chief 
of police, Richard Saunders, and legislative council member, 
Verlon Jose. We are very much concerned about the issues you 
raised today.
    Senator Inouye. You will send us a copy of that 
communication and we will see what we can do.
    Ms. Juan-Saunders. Thank you.
    Senator Inouye. Chairman Windy Boy, you are going to have a 
new campus there. What are you going to name it?
    Mr. Windy Boy. Stone Child College.
    Senator Inouye. It has been a long time since I have been 
there.
    Mr. Windy Boy. We would welcome you back.
    Senator Inouye. You indicated you have good working 
relationships with your local FBI agents but how long does it 
take the FBI to respond to calls?
    Mr. Windy Boy. Fortunately in the last year or so, they 
have located parts of the Great Falls office which is 130 miles 
to the west, located them to service both the Chippewa Cree 
Tribe and the Gros Vent Tribes.
    Senator Inouye. But it takes a couple of hours for them to 
drive down?
    Mr. Windy Boy. Yes.
    Senator Inouye. They cannot respond immediately even if 
they tried to?
    Mr. Windy Boy. No.
    Senator Inouye. Has the FBI refused to investigate or 
pursue a crime committed by a non-Indian because of lack of 
adequate resources?
    Mr. Windy Boy. Depending on the situation. Drugs, which is 
getting predominant in our area, they have been helpful in that 
arena. The problem that I see, and I will use Rocky Boy as an 
example, we have trained a number of officers and a number of 
our officers have left tribal service to work for the Bureau of 
Indian Affairs where the pay is better and stability with other 
fringe benefits.
    Senator Inouye. There are ICBM stations near you?
    Mr. Windy Boy. Yes.
    Senator Inouye. How close are they?
    Mr. Windy Boy. The closest one would probably be 9 miles 
from the nearest reservation boundary.
    Senator Inouye. Have you ever been called upon to respond 
to any problem there?
    Mr. Windy Boy. In reference to?
    Senator Inouye. Some sort of security problem? Have they 
ever called you?
    Mr. Windy Boy. No.
    Senator Inouye. Once again, I thank all of you for your 
testimony.
    Now may I call upon my colleague, Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.

  STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM HAWAII

    Senator Akaka. I want to compliment you and commend you for 
having this hearing which is important to our Indian nations 
being that the Homeland Security Act is to ensure that the 
local tribal governments are consulted and involved in homeland 
security.
    From what I gathered from your testimonies here, that is 
not happening that way. Section 13 helps to ensure that and I 
am glad to also hear that you are supporting that section in 
the bill.
    The Government folks who were here earlier answered the 
questions and seemed to indicate that these procedures are 
working. As you know, we are modifying the Homeland Security 
plan to meet States' needs. The Chairman has asked you about 
reimbursements. From what I gather, that has not come through 
but I'd like to ask you about grants, whether any of you have 
received any grants from homeland security at this time?
    Mr. Windy Boy. One that I'm familiar with was through the 
Department of Agriculture for $20,000. I believe each of the 
tribes in Montana and Wyoming received those but $20,000 was 
limited and was acquired through the Montana and Wyoming Indian 
Stock Growers Association that I chair.
    Senator Akaka. Governor Johnson.
    Mr. Johnson. As best as I can recall, we have not received 
any funds directly from the Department of Homeland Security 
though we have received a limited amount of assistance from the 
State and various other Federal agencies that also have 
involvement in homeland security activities.
    Senator Akaka. Chief Old Person.
    Mr. Old Person. As Chairman Windy Boy indicated, some of 
that we were involved in but there were units built along one 
of the border crossings that we tried to get into without 
success. We were unable to be a part of those units being built 
under the Homeland Security. There really hasn't been anything 
we could recognize that was coming to us. Yet we are still 
trying to work with them to be involved. They are wanting to 
build more units on one of the other border crossings and we 
are hoping to work out something that we could be involved in 
because we have people that can build too. We thought we should 
be given that chance to work with them.
    Senator Akaka. Chairwoman Juan-Saunders.
    Ms. Juan-Saunders. Other than the equipment I referred to 
in my testimony, no we have not received any grants at all.
    Senator Akaka. I also wondered whether any grants were 
offered to you at all. I guess not.
    I also understand from the officials here before you that 
they have done some out reach and day to day contact, training 
and intelligence, Border Patrol training. My question to you is 
has that happened as far as you know with your tribes? 
Governor.
    Mr. Johnson. I am not aware of any direct contact by the 
Office of Homeland Security. In the forum that was held 
yesterday, the representative from the Department of Homeland 
Security, I believe her name is Sherry Rowe, indicated that she 
had been to Acoma, the community adjacent to ours. I am not 
sure she stopped by to speak with any of our personnel there. 
So as far as I know, we have not had any direct contact with 
the Department.
    Senator Akaka. Chief Old Person, has there been any 
involvement of the tribe?
    Mr. Old Person. I attended a meeting in Helena, MT at the 
Fort Harrison Veterans Hospital. It was within the National 
Guard unit. At that meeting, we were told by the people working 
with the State that the tribes were given a chance to be a part 
of $7 million offered and no one responded with the exception 
of one. Myself, we did not receive notification. I don't know 
about Chairman Windy Boy. If you are not notified of anything 
like that, you cannot be involved or you cannot respond. That 
was one thing brought out to us.
    At the same time, there is a second go round of $2 million 
but that never has happened. That is why I said we begin to see 
less and less involvement or anything saying we can be a part 
of this.
    Senator Akaka. You are correct. Dr. Raub did mention there 
was a second go round of money and I wondered whether you 
received any of that.
    Chairwoman Juan-Saunders.
    Ms. Juan-Saunders. Just a few discussions. The Arizona 
tribal leaders and law enforcement officials expressed concern 
to the State of Arizona about our lack of involvement and 
access to funding sources. Consequently, the Arizona Department 
of Homeland Security scheduled a meeting with the Arizona 
tribal leaders and law enforcement.
    In terms of the Tohono O'odham Nation, our police chief 
currently serves on the Homeland Security Directors Advisory 
Committee. I was invited by the border mayors to a meeting with 
the Governor of Arizona to discuss these issues with the 
Arizona director of Homeland Security. I expressed my concern 
that we still, as a tribal nation were not receiving direct 
funding and I am pleased to note that the border mayors is at 
least supporting our efforts. We are continuing to work in 
collaboration with them but we still have not seen any direct 
resources come to the Tohono O'odham Nation.
    Senator Akaka. Chairman Windy Boy.
    Mr. Windy Boy. Certainly the communications as Chief Old 
Person mentioned need to be strengthened. I have been involved 
to the extent of sending one of my staff persons to those 
homeland security meetings in Helena. My thoughts are 
government to government and it is very hard as chairman to 
have to sit down amongst non-policymakers, State employees, 
trying to figure out what is in the best interest of my tribe. 
I would like to deal with someone that is going to create 
positive change with me as chairman of a sovereign nation.
    Senator Akaka. Thank you for your response.
    Mr. Chairman, I have an opening statement that I would like 
to have entered into the record.
    Senator Inouye. Without objection, so ordered.
    [Prepared statement of Senator Akaka appears in appendix.]
    Senator Akaka. And also some questions for the first panel.
    Senator Inouye. Thank you all very much.
    I would like to call the last panel which consists of: Tex 
Hall, president, National Congress of American Indians; Gary 
Edwards, chief executive officer, National Native American Law 
Enforcement Association; and Tim. Sanders, emergency operations 
coordinator of Gila River Indian Community, Office of Emergency 
Management, Gila River Indian Community.
    Mr. Hall.

STATEMENT OF TEX HALL, PRESIDENT, NATIONAL CONGRESS OF AMERICAN 
                            INDIANS

    Mr. Hall. Thank you very much for giving us the opportunity 
to testify.
    I was very concerned about the government officials leaving 
the room after they finished with their panel. If that is any 
indication of working with tribes, I don't think it is working 
very good. I found out there is a Tribal Homeland Security 
Director and she left. So I don't know how they are going to 
effectively work with tribes when they don't stick around to 
listen to the testimony of tribes.
    I also want to comment that during 9/11, members of tribes 
told me that you were on the Hill during that time, and, as 
mentioned tribal leaders were meeting here in Washington, DC. 
You took the time to come off the Hill and go down to the Grand 
Hyatt and tell the tribes that 9/11 had happened and a tragedy 
had happened to our country. I want to just recognize you for 
that. You didn't have to do that, but you did and that tells a 
lot about who you are and your relationship with Indian tribes. 
So thank you very much, Mr. Chairman, for that.
    For the record, my name is Tex Hall, president, National 
Congress of American Indians and chairman of the Mandan, 
Hidatsa, and Arikara Nation in west central North Dakota 
located on the Fort Berthold Indian Reservation.
    I want to acknowledge the strong role of this committee's 
chairman, Chairman Campbell, yourself as Vice Chairman, and 
members of the committee, and all of the other sponsors of S. 
578. We thank them for their sponsorship and protecting the 
sovereign rights of Indian nations and our friendships over the 
past years.
    I also would like to thank the committee for conducting 
this hearing on tribal government amendments to the Homeland 
Security Act of 2002.
    I am here to express our strong support for the bill and 
the committee's effort to correct the troubling exclusion of 
tribal governments from nearly all aspects of homeland security 
to date. S. 578 will change the Homeland Security Act's 
incorrect definition of tribes as local governments and thus 
close a critical vulnerability gap in our Nation's homeland 
security network.
    NCAI has three important recommendations to the committee 
regarding S. 578. First, we recommend the bill be amended by 
the committee to include Alaska Native Tribal Governments. 
Second, we recommend the inclusion of language to strengthen 
the jurisdictional provisions in section 13. We have provided 
the committee with language for both these recommendations. 
Third, for tribes to receive direct Federal services. Tribes 
should be provided additional funding to alleviate the 
budgetary strains caused by homeland security related problems 
such as patient overload in tribal hospitals and clinics 
created by illegal immigrants on borders.
    In order to give context to my remarks, I want to first 
demonstrate how the issue of homeland security impacts my tribe 
in Fort Berthold. As you mentioned, hundreds of Minute Men 
missile launch sites are located throughout North Dakota. The 
Minute Man has played a strategic role in our homeland security 
defense system for over 40 years. What you may not know, Mr. 
Chairman, is there are up to 18 missile silos located on our 
reservation, only 3 miles from the city of New town, the 
headquarters for our tribal administration.
    Our police officers are regularly called to investigate 
trespass calls on or near these U.S. Air Force-controlled 
sites, especially when these incidents happen outside of the 
Air Force patrols 9 to 5 shift. Despite these services, my 
tribe did not receive any funds from the U.S. military or from 
the Department of Homeland Security.
    The Garrison Dam sits near our reservation and when it was 
built, it decimated our remaining tribal land base and nearly 
destroyed our culture. The impacts on our loss of life and 
property if the dam was to be destroyed by a terrorist attack 
is unthinkable. Now it is over 100 miles in distance to our 
most southern community from our headquarters.
    With regard to State funding, my home State of North Dakota 
received over $13.2 million for homeland security. Just under 
$73,000 of this amount was earmarked for all of the Indian 
reservations in North Dakota. That means just a little over 
$14,000 went to my reservation and the other tribes. That is 
less than 1 percent of our State's contribution. We were never 
consulted about any formula for appropriations or any formula 
for determining our unmet needs for securing our tribal 
homeland borders. None of that was done.
    The $73,000 is going to be spent for an additional State 
Homeland Security Liaison to work with Indian tribes. The net 
result is that none of these actual monies in the State of 
North Dakota will be spent to educate or train tribal law 
enforcement concerning domestic terrorism in our State.
    Even more disturbing is the fact that the tribes will not 
receive any money to coordinate with the State and Federal law 
enforcement authorities, which is critical. Coordination is 
crucial if events were to happen on or near our reservation.
    I have spoken with other tribal leaders throughout the 
Nation and the failure of States to consult with Indian tribes 
and include them in their homeland security efforts appears to 
be the rule rather than the exception.
    I want to finally point out that many tribes, such as mine, 
are becoming more inviting to terrorism because of the presence 
of our casinos our tourist attractions, and economic 
development. The Lewis and Clark Bicentennial, which started 
this year from 2003-06, will draw millions of people to 
reservations in Indian country from St. Louis to the West 
Coast. Homeland security funding and training is critical to 
ensuring tourist safety.
    As my fellow tribal leaders have attested, tribal lands 
nationwide host similar sensitive sites. Tribal lands include 
over 300 miles of international borders and 28 tribes are 
located on or within 5 miles of an international border. These 
tribes face serious immigration issues that have been widely 
reported and documented. What is less known is the extensive 
nature of infrastructure located on or near tribal lands that 
is critical to our Nation's security. These include nuclear 
power plants, hydroelectrical dams, pipelines, transmission 
lines, railroads, airports, highway corridors, nearby military 
installations, and huge populations centers. Like all other 
governments, tribal governments need the necessary resources to 
develop the capacity to respond to threats of terrorism. The 
bottom line is that our national defense system is only as 
strong as its weakest link.
    Many of you have hundreds of thousands of constituents who 
like it or not have to count on tribal law enforcement to 
protect these sites. Your constituents will have to count on 
tribal first responders to take action in the event of the 
unthinkable. Yet, for some reason Indian tribes have been left 
out of the planning efforts that this Nation has taken to date 
to secure our homeland. S. 578, we believe, will correct these 
defects.
    The Homeland Security Act of 2002 established the 
Department of Homeland Security as the principal agency to 
develop the national effort through a system of counter 
terrorism analysis, preparedness and information sharing. Yet 
the Act has a glaring weakness. It fails to include tribal 
governments as full-fledged participants in the Department of 
Homeland Security's program implementation. Instead, the Act 
regulates tribal governments to the local government category, 
a designation used for counties and municipalities with an 
entire different level of responsibility for ensuring public 
safety.
    This has to change. The Department of Homeland Security is 
not the first agency to encounter problems with Federal program 
delivery and tribal consultation, but I hope it will be the 
last. The bottom line is tribes need adequate funding to do the 
job in protecting against terrorist threats. For decades, 
States and local governments have received hundreds of millions 
of dollars for developing and enhancing their emergency 
management infrastructure, including emergency response.
    As I testified, tribes have been largely ignored when it 
comes to funding and technical assistance from Federal 
agencies. We have been forced to ask for funding from States 
and counties counter to the Federal policy supporting the 
government to government relationship.
    Adding to our frustration is the Department of Homeland 
Security's lack of communication and consultation with Indian 
tribes. The Department has assembled various work groups and 
task forces but have not invited tribal leaders and 
representatives to sit at the table. S. 578 is the right bill 
at the right time to do this. It is almost 2 years since 9/11.
    The President of the United States, President Bush, 
recently said we have an obligation to future generations of 
America to make sure this country is secure and we will keep 
that obligation. This measure is a decisive measure and a smart 
investment that will fulfill that commitment for our tribal 
families and for our future tribal generations.
    I would like to add in closing that the jurisdictional 
problems that were talked about previously created by the 
Oliphant decision denies tribal people the opportunity to 
protect our tribal people and that must change. I greatly 
appreciate the candid comments made by Mr. Heffelfinger. The 
Homeland Security Act is an important vehicle for discussing 
this problem because it highlights the very real issues that 
tribes face every day, not just in terrorist attacks.
    We are interested in having a broader discussion about 
jurisdiction in Indian country but this cannot wait forever. 
Tribal police need the tools to address crimes committed by 
non-Indians in Indian country. Domestic violence and alcohol 
and drug crimes are our biggest problems in sheer volume alone. 
The most important civil right we all have is the right to be 
safe in our homes.
    In closing, we would like to have the same opportunity as 
the Department of Justice to work on the language with the 
committee on section 13.
    Thank you very much for giving me the opportunity to 
testify.
    [Prepared statement of Mr. Hall appears in appendix.]
    Senator Inouye. Thank you very much, President Hall.
    Now may I recognize Chief Executive Officer Gary Edwards.

 STATEMENT OF GARY EDWARDS, CHIEF EXECUTIVE OFFICER, NATIONAL 
      NATIVE AMERICAN LAW ENFORCEMENT ASSOCIATION [NNALEA]

    Mr. Edwards. Vice Chairman Inouye and distinguished members 
of the committee, my name is Gary Edwards. I am appearing and 
testifying today as the chief executive officer of the National 
Native American Law Enforcement Association.
    As many of you may be aware, NNALEA is a not-for-profit 
organization that promotes and fosters cooperation between 
American Indian law enforcement officers, agents, their 
agencies, tribes, private industry and the public. NNALEA 
recently published its Tribal Lands Homeland Security Report 
which details many of NNALEA's current findings and views on 
the importance of tribal lands and tribal governments in the 
furtherance of the mission of homeland security. We also have 
an upcoming Homeland Security Forum in November of this year 
wherein we will further pursue vital homeland security issues.
    I appreciate the opportunity to appear before you to 
discuss some of NNALEA's views on S. 578 and perhaps even 
earmark certain issues that need to be pursued in more detail 
at our upcoming conference.
    I have prepared a written copy of my testimony, along with 
a copy of the NNALEA Tribal Lands, Homeland Security Report and 
ask that it be accepted into the record.
    Senator Inouye. So ordered.
    Mr. Edwards. Generally, NNALEA supports the tenets of 
sections 1-12 of the tribal government amendments to the 
Homeland Security Act of 2002. I will refer to these sections 
further in this testimony as ``the amendments.'' In pages 6-9 
of the NNALEA Tribal Homeland Security Report, we set forth an 
outline of many of the vulnerabilities located on tribal lands 
that pose a threat to the homeland security of our entire 
country. These vulnerabilities include border security, 
critical infrastructure, integration of law enforcement, lack 
of jurisdictional clarity, and emergency response and medical 
capacity planning and implementation.
    Obviously as these vulnerabilities are located on tribal 
lands, Indian tribal governments have invaluable insight into 
them and the best means to safeguard them against terrorist 
attacks. Accordingly, Indian tribal governments must be 
included, consulted and involved in carrying out the mission of 
the Department of Homeland Security.
    Such inclusion, consultation and involvement should occur 
directly between the United States and each Indian tribe on a 
government to government basis. Indian tribal governments 
possess inherent sovereign authority.
    With regard to section 13 of ``the amendments,'' NNALEA 
generally agrees with the tenet that the inherent sovereign 
authority of Indian tribal governments as recognized in section 
2 of the amendments include the authority to enforce and 
adjudicate its applicable criminal, civil and regulatory law 
violated by any person on tribal lands within certain 
limitations.
    It appears that most everyone agrees these limitations 
should include at a minimum those set forth in any treaty 
between the United States and an Indian tribe as well as those 
set forth in any applicable act of Congress. NALEA is, however, 
aware there are certain rights in the enforcement and 
adjudication of applicable criminal, civil and regulatory laws 
that are at present guaranteed on non-tribal land and by non-
tribal governments but that are not guaranteed on all tribal 
lands and by all tribal governments thereby creating a 
discrepancy in the enforcement and adjudication of certain 
laws.
    Such discrepancies invoke a number of concerns such as due 
process which probably require a further coming together and 
balancing of an Indian tribal government inherent sovereign 
rights, the rights of all citizens and the resources available 
to the Indian tribal governments to enforce and adjudicate 
applicable laws. Such discrepancies will ultimately be 
encountered by the legislature and/or by the judicial system 
should section 13 be enacted as currently drafted.
    Therefore, NALEA suggests that in considering section 13, 
the discrepancies of the rights referenced above should be 
evaluated in detail along with the lack of parity in resources 
provided to non-tribal governments versus those provided to 
tribal governments for the purposes of enforcing and 
adjudicating applicable laws.
    After consideration of such, it might be surmised that 
section 13 should be crafted in a way that better ensures both 
the present discrepant rights in whole or in part and in a way 
that provides for Indian tribal governments to receive an 
influx in resources which allow them to bring their authorities 
that enforce and adjudicate the laws into parity with those of 
non-tribal governments.
    In conclusion, NALEA supports the general tenets of the 
amendments. However, there are certain specific details of the 
amendments, especially regarding section 13, that probably 
require further examination and clarification.
    Thank you and I am happy to answer any questions you may 
have at the appropriate time.
    [Prepared statement of Mr. Edwards appears in appendix.]
    Senator Inouye. Thank you very much, Mr. Edwards.
    Mr. Sanders.

  STATEMENT OF TIM SANDERS, EMERGENCY OPERATIONS COORDINATOR, 
  GILA RIVER INDIAN COMMUNITY OFFICE OF EMERGENCY MANAGEMENT, 
                  GILA RIVER INDIAN COMMUNITY

    Mr. Sanders. Good afternoon.
    On behalf of the Gila River Indian Community of Arizona, I 
would like to thank you for allowing us to testify here today.
    My name is Tim Sanders and I am the manager of the Gila 
River Indian Community Office of Emergency Management. In the 
interest of time, I would like to submit my full written 
testimony and highlight a few parts for you this afternoon.
    We are pleased to be here to discuss S. 578, the Tribal 
Government Amendments to the Homeland Security Act. We think 
this is an important first step in the attempt to clarify the 
roles and responsibilities of tribal governments in the 
Homeland Security Act. I want to share with you some of the 
experiences we have had with emergency management and homeland 
security type issues that I think may be helpful as we further 
the discussion.
    It has been an honor for me to listen to the tribal leaders 
discuss the problems they have and hear about their concerns 
for the people for whom they are ultimately responsible. I am 
here as the person charged with implementing the Homeland 
Security Act and other emergency management measures in our 
community. It is a big responsibility. I take it very 
seriously. We have some issues that I think S. 578 will help 
resolve as we go along.
    The Gila River Indian Community is located just south of 
Phoenix, Arizona, is home to about 14,000 of the 18,000 
enrolled members of the community. It is the largest 
reservation in the Phoenix metro area.
    We have worked very hard over the past several years to 
establish and build a very respected and successful emergency 
management program at Gila River. The community also operates a 
fire department, a police department, emergency medical 
services, department of public health, a hospital and these are 
parts of the Arizona State homeland security network.
    I think our current emergency management capabilities 
demonstrate that tribes can and do play an important role in 
homeland security in a regional concept and a State concept of 
homeland security.
    We are here to support S. 578. The bill makes important 
changes to the Homeland Security Act that recognizes the 
sovereignty of tribal governments. It proposes to establish a 
more direct government to government relationship. We just 
received a letter from the Governor of Arizona that supports S. 
578 and I think that letter was sent to the committee 
yesterday. We have worked very hard with the State on some of 
these issues.
    In the broader context of homeland security, however, there 
are certain other issues about the treatment and role of tribes 
that are unclear. S. 578 only corrects one of several omissions 
with regard to tribal treatment and tribal sovereignty for both 
homeland security and emergency management.
    In recent years, we have worked closely with the Federal 
Emergency Management Agency to address an omission in their 
authorizing legislation, the Stafford Act, which has the same 
problem the Homeland Security Act does with regard to defining 
tribal governments as local government. This means tribes 
cannot directly request disaster declarations, they can't enter 
a direct government to government relationship with FEMA and 
many of their programs.
    I want to talk about some examples we have worked on with 
FEMA to work around this issue that needs to be fixed. FEMA 
worked very well with us on some of these issues. They have 
established tribal liaisons in each one of their regions. We 
worked with them to develop a measurement instrument that is 
now available as software to help tribal emergency management 
programs set goals and objectives for their programs and 
measure their program capabilities. We also worked with FEMA to 
develop a specific tribal emergency management training course 
that is available to tribes. They present it twice a year at 
their Emergency Management Institute in Emittsburg, MD.
    We think homeland security could probably follow the same 
lead as FEMA working with tribes that have developed the 
capability that can serve as a model to help other tribes. 
Unfortunately, we still have that problem that doesn't properly 
recognize the role of tribal governments. When the rubber meets 
the road sometimes, those Federal agencies will fall back on 
that law as a stumbling block to providing the proper technical 
assistance, funding assistance and things like that.
    While we are excited about the prospects of amending the 
Homeland Security Act, we would urge the committee to keep in 
mind the Stafford Act is still out there and I think the same 
changes may need to be made to that bill as well.
    S. 578 doesn't do anything for the funding mechanisms for 
tribes. The majority of homeland security funds are distributed 
through the States and we have heard several examples of having 
to lobby county governments and things like that and have 
tribal leaders sit down with staff members from counties to try 
to lobby and negotiate for pieces of funding that should be 
going to the tribes.
    The Department of Health and Human Services has funding for 
hospitals and public health departments. That funding goes 
through the State and tribes must sit down at the table with 
various local governments to negotiate the terms of what if any 
kind of assistance they are going to get for this.
    None of the programs really direct that grant funding would 
go directly to the tribes. It is a matter of how you negotiate 
and what kind of relationships you have been able to establish 
with your State and local governments. Obviously this is 
unacceptable for our community and probably many other Indian 
communities in the Nation.
    A bill currently under consideration in the Senate, S. 
1245, aims to consolidate a lot of the grant funding programs 
for the Department of Homeland Security. That bill also has no 
provisions for addressing the tribal funding needs. Instead, 
the tribes would have to depend upon the States and upon those 
counties and local jurisdictions to compete for those funds 
they need.
    We would urge the committee also to take a look at S. 1245 
and see what kind of language may be developed for that bill 
that would address some of those issues. We would be glad to 
assist with developing some of that language to make sure that 
even if we get S. 578 and the Stafford Act changed, if there is 
still no funding mechanism, we will still be back to square one 
on some of those issues.
    We do have some recommendations. We don't come here with 
our hands out today. We have invested considerable resources at 
the Gila River Indian Community to establish a program to take 
care of the needs of our community in the absence of some of 
the Federal assistance we should be getting. We are proud we 
have a sophisticated program that can take care of some of 
those needs that allows us to get out there and build working 
relationships with our counties, with the State counterparts.
    I think from this experience we can bring some 
recommendations that will help strengthen tribal emergency 
management programs and perhaps give some other recommendations 
for strengthening the homeland security package that you are 
considering.
    The first recommendation is the same amendment needs to be 
made to the Stafford Act that is made to the Homeland Security 
Act. I think it makes sense now to bring that under 
consideration while S. 578 is under consideration.
    Our second recommendation is that we believe that tribal 
governments should be given the option of being a reporting 
jurisdiction in a State's homeland security plan. Right now 
Arizona has made the administrative decision to designate their 
15 counties as reporting jurisdictions for the threat 
assessments and needs assessments. That means that Gila River 
and several other Indian reservations in Arizona must 
artificially divide their needs and threat assessments and try 
to make it fit into both or three counties they are in and that 
complicates things for the counties as they relay that 
information to the State. It doesn't give a clear picture of 
what the threats and needs are on the reservation. I think it 
leaves gaps in the State's homeland security assessment as 
well.
    Congress should stress to DHS and HHS that tribes should be 
given an option if they have the administrative ability to 
manage those grants and things like that. We have sent a letter 
to our State Director of Homeland Security requesting they give 
tribes the option to do that in Arizona. I think we might see 
some movement on that in the future.
    Third, I think Congress must recognize that tribes have 
some unique homeland security issues and needs. Traditionally, 
they will come to the table with much less emergency 
preparedness infrastructure. I think it is unfair to burden 
States that do have tribes with having to dilute their funding. 
It may be possible somewhere down the road to have a set aside 
amount that goes to States that have tribes set aside 
specifically for tribal homeland security needs.
    Fourth, despite the relative disadvantage with respect to 
emergency management infrastructure, tribes must be given the 
opportunity to participate as full partners. I think the 
amendments to S. 578 will help local and State governments 
realize tribal governments do exist. They are there and should 
be treated as equal partners at the table. I think it will 
enhance our capability to enter into relationships with them 
and work out some of these issues.
    Finally, we concur with other colleagues in the emergency 
management community that an all hazards approach to emergency 
management should be maintained. We see a lot of emphasis on 
the law enforcement side, the surveillance side and things like 
that. I think based on our experience, it is very important 
that the all hazards approach be maintained. I think there is 
another bill under consideration, S. 930, that seeks to amend 
the Stafford Act to include terrorism aspects under their 
umbrella of Federal assistance. There are some vehicles out 
there to address some of the concerns and some of the 
recommendations we have.
    In conclusion, I would like to thank you again for allowing 
us to testify. We are encouraged by the attention that some of 
these issues have been getting. We have been involved in trying 
to get some action on these for many years. We would like to 
offer any assistance we can with language, with serving as a 
model community, with assisting, whatever we can to help tribal 
governments become more active and more participatory in the 
homeland security arena.
    We look forward to working with you on this bill and any 
other homeland security issues we can help you with.
    Thank you very much.
    [Prepared statement of Mr. Sanders appears in appendix.]
    Senator Inouye. Thank you very much, Mr. Sanders.
    As noted by you, we have received a letter in support of 
this measure from the Governor of Arizona, Janet Napolitano, 
and that will be made a part of the record.
    Her letter is in support of S. 578.
    President Hall, you made a very interesting observation 
that North Dakota received $13.2 million for homeland security 
purposes and yet only $73,000 was set aside for Indian tribes 
and all these limited funds could enable the hiring of a 
liaison officer with the result that no actual funds were 
allocated to the tribes.
    Mr. Hall. I got my notice last Friday. It was just under 
$73,000 and they are going to use it to hire a liaison. We 
really didn't get any money.
    Senator Inouye. How much did you get, $3?
    Mr. Hall. It really is embarrassing. You can't defend your 
homeland with that kind of dollars.
    Senator Inouye. This measure will address that.
    Mr. Hall. This would be a tremendous help to us. As I 
mentioned, there are strategic missile silos, and hydroelectric 
dams located on Fort Berthold, a mere $14,000 for homeland 
security is embarrassing. There is no way it can cover any 
amount of surveillance that is needed.
    Senator Inouye. We intend to use S. 578 as a legislative 
vehicle to amend the Stafford Act as far as the definition is 
concerned. I presume all of you are in favor of that?
    Mr. Hall. Yes, sir.
    Senator Inouye. I do not think the Administration would 
oppose that. After all, Justice has said they can go along with 
that.
    President Hall, I am certain you have heard concerns 
expressed by certain non-Indians on this measure that it will 
create a lot of chaos in reservation communities and authorize 
broad civil and criminal jurisdiction over non-Indians. Is 
there any reason for them to be concerned?
    Mr. Hall. Not at all. If they read the legislation, it is 
pretty straightforward, it is limited to the acts of terrorism. 
I think people are jumping to conclusions. I think radicals are 
jumping to conclusions and those radicals have never been in 
Indian country. They don't understand the vastness of Indian 
country. Indian country is 56 million acres of trust land as 
you know, Senator. There are strategic initiatives, military 
installations, airports, railroad, hydroelectric dams located 
on Indian land. You put all that together, there is no way we 
can defend our homeland for only $14,000 for each tribe?
    If there is an attack, heaven forbid, that would be on a 
reservation, the tribal government is the closest thing within 
hundreds of miles in many rural parts of America. Non-Indian 
communities are going to call our reservation because of the 
communication system, because of the law enforcement, the 
ambulance, the fire system. They are going to call our tribal 
governments and we are going to respond as Governor Johnson 
indicated when the railroad had their incident, they responded. 
They didn't get a thank you until quite some time later but 
nevertheless that happens throughout Indian country in the 
interest of protecting human life. A terrorist doesn't care 
whose jurisdiction it is.
    No, those are radical statements that are ill founded and 
haven't led to legislation. The legislation is limited to acts 
of terrorism and tribes have to have that ability. If our law 
enforcement, our emergency response is there, if there is an 
act of terrorism, we have to have the ability to move quickly 
to protect human life. So we have thought about that and are 
ready to assist the committee in any manner whatsoever, but I 
believe a lot of those are not really thought out statements. 
Those are radical statements by anti-Indian groups that don't 
like Indian people for whatever reason. They are very 
discriminatory and racist towards our people and they are not 
focused on this piece of legislation which is the Tribal 
Homeland Security. It amends the Homeland Security Act to 
include tribal governments' ability to have direct funding and 
to have the authority and jurisdiction to protect all people, 
all races if an act of terrorism occurs.
    Senator Inouye. Mr. Edwards, has the Department of Homeland 
Security had any official contact with your organization?
    Mr. Edwards. Yes, sir; they have.
    Senator Inouye. What was the nature of that?
    Mr. Edwards. To work together to reach out to various 
Indian organizations and tribes to work with us on our homeland 
security summit. I might add that probably most of that was 
initiated by NALEA seeking and looking for help and support 
from the Department of Homeland Security.
    Senator Inouye. Have members of your organization had the 
opportunity to work with the law enforcement officials, and the 
Federal Bureau of Investigation on matters of homeland 
security?
    Mr. Edwards. Yes, sir; we have. NALEA is about 
partnerships, it's about building relationships. We work 
extremely closely with the FBI. As a matter of fact, just 2 
weeks ago we worked with them to develop a plan with missing 
and exploited children in Indian country, to take that program 
to Indian country. So we work with almost all Federal agencies 
as well as tribal, State and local.
    Senator Inouye. You think this measure will enhance that?
    Mr. Edwards. Yes, sir; I definitely do.
    Senator Inouye. Mr. Sanders, thank you for your testimony. 
As you know when we report out a measure for consideration by 
the full Senate, we accompany that with a committee report. In 
that committee report, I will advise the staff to make certain 
the provisions are clearly set forth that by this measure or 
perhaps another measure, we will make certain that Gila River 
will become a reporting jurisdiction and furthermore, we would 
like to include clarifying language to assure that when funds 
are appropriated, they will not go through the State but go 
directly to tribal governments.
    Mr. Sanders. That would be excellent.
    Senator Inouye. I do not suppose you would oppose that. We 
do respond to testimony, believe me. I hope the measure we 
report to the full Senate will be one that will address some of 
your concerns. We realize that this is not a cure all but I 
think as some of you have indicated, it is a good first step. 
We hope this will become not just a first step but will serve 
as a foundation on which we may add many more steps.
    With that, I thank all of you for your participation today. 
We will now get to work and report out a bill.
    The hearing is adjourned.
    [Whereupon, at 4:22 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


    Prepared Statement of William F. Raub, Ph.D., Principal Deputy 
  Assistant Secretary, Office of Public Health Emergency Preparedness

    William F. Raub is the Principal Deputy Assistant Secretary of the 
Office of Public Health Emergency Preparedness, Office of the Secretary 
of Health and Human Services [HHS]. He has also served as the Principal 
Deputy Assistant Secretary of the Office of Planning and Evaluation, 
also within the Office of the Secretary.
    Dr. Raub was the HHS Deputy Assistant Secretary for Science Policy 
from 1995 to 2001. He was the Science Adviser to the Administrator, 
United States Environmental Protection Agency from 1992 to 1995 after a 
1-year assignment as Special Assistant for Health Affairs in the Office 
of Science and Technology Policy, Executive Office of the President of 
the United States. Prior to that, he was the Deputy Director of the 
National Institutes of Health [NIH] in the Department of Health and 
Human Services from August 1986 through November 1991. From July 1989 
through March 1991, he was the Acting Director, NIH.
    From 1978 to 1986, Dr. Raub served first as Associate Director, and 
later Deputy Director, for Extramural Research and Training at NIH. He 
was Associate Director of the National Eye Institute from 1975 to 1978 
and Chief of the Biotechnology Resources Branch in the Division of 
Research Resources from 1969 to 1975. Dr. Raub was Acting Chief of the 
Special Research Resources Branch, Division of Research Resources, in 
1968-1969, and was a Health Scientist Administrator in the Division of 
Research Facilities and Resources from 1966 to 1968. From 1966 through 
1979, Dr. Raub led the development of the PROPHET system, the first 
integrated array of computer-based tools for the study of the 
relationships between molecular structures and biological effects.
    Dr. Raub has received numerous awards from external organizations 
for his government service--including the Society of Research 
Administrators' Award for Distinguished Contribution to Research 
Administration, the American Medical Association's Nathan Davis Award, 
and election as a fellow of the National Academy of Public 
Administration. In addition, within HHS, he has twice been presented 
the Distinguished Service Award and has received the Presidential 
Meritorious Executive Rank Award and the Presidential Distinguished 
Rank Award.
    Born in Alden Station, Pennsylvania, Dr. Raub was graduated summa 
cum laude with the A.B. degree in Biology from Wilkes College in 
Wilkes-Barre, Pennsylvania. He received the Ph.D. degree in Physiology 
from the University of Pennsylvania, where he also was awarded a 
National Science Foundation Graduate Fellowship and was a Fellow of the 
Pennsylvania Plan. During 1965-1966, Dr. Raub was an instructor and 
post-doctoral fellow at the University of Pennsylvania Medical School.
                                 ______
                                 

Prepared Statement of Audrey Bennett, President, Prairie Tribal Council

    Good afternoon Mr. Chairman and committee members. My name is 
Audrey Bennett, and I'm president of the Prairie Island Indian 
Community. Thank you for inviting me to testify today.
    I'm here to offer this committee a perspective that is unique to my 
community but emblematic of the homeland security issues with which 
many tribal governments in this country must contend.
    For your reference, I've provided an aerial photo of Prairie 
Island, which is located between the Mississippi and Vermilion Rivers 
in southeastern Minnesota, about 50 miles south and east of 
Minneapolis-St. Paul.
    Prairie Island is sacred land. Our people have lived there for 
countless generations. It is my home as well as the final resting place 
for my ancestors.
    As you can see, our reservation is bordered by a nuclear powerplant 
and nuclear waste storage site. Two nuclear reactors and 17 large 
storage casks filled with highly radioactive nuclear waste sit just 600 
yards from our homes, church, community center, and business.
    In fact, our community is believed to be the closest in the Nation 
to both a nuclear powerplant and nuclear waste storage site--yet we 
have no special role in helping to protect these facilities, or for 
that matter, ourselves.
    For decades, well before terrorism became the issue that it is 
today, our tribe had to fight to be properly recognized by the State of 
Minnesota and our utility neighbor. In 1979, when the plant was 
evacuated after a steam generator leaked radiation into the atmosphere, 
no one even bothered to inform our people about the incident. Most 
tribal members realized something was wrong only after witnessing 
numerous cars speeding away from the plant. Many of us wisely followed.
    Today we are better prepared for a similar incident, and we have a 
reasonably cooperative relationship with the plant and the State. But 
in this age of catastrophic terrorism, conventional emergency planning 
and tangential communication seems grossly inadequate. While we 
participate in the State's radiological drills and exercises, we have 
no formal role in helping to prevent an attack, and our involvement in 
responding to such an event is, at best, ill-defined.
    Imagine every time you leave your house or look out your window, 
seeing a nuclear powerplant and being reminded of your vulnerability. 
Imagine in this day of color-coded warnings and credible threats, 
fearing the worst every time an airplane flies by or a news helicopter 
hovers over the neighboring nuclear plant. Imagine, and this happened 
recently, driving down your road only to see military Humvees stationed 
at your intersection without any explanation or notice.
    This is what we live with every day. We are uninformed. We are 
victims in waiting.
    Even in disaster recovery, should the worst occur, under the 
existing system we have little to no independent recourse; instead, we 
are largely subject to State authority. This was evidenced recently 
when our community was affected by major flooding, and we had to go 
though the State to access Federal resources.
    While there, of course, needs to be cooperation between tribal and 
State governments, it is not appropriate for States to be in the 
position of deciding what tribes need to prepare for or recover from a 
disaster--natural or otherwise.
    Our tribal government, not the State, is ultimately responsible for 
the health and safety of as many as 10,000 people, including our tribal 
members, employees and visitors. But we also have a responsibility to 
scores more that live in the area by virtue of our proximity to a 
potential terrorist target and our obligation as Americans to help 
protect the homeland.
    According to a January 2003 poll, nearly 60 percent of Minnesotans 
are concerned that the State's nuclear powerplants could be targeted 
for terrorism. And 54 percent say that they would need to live at least 
50 miles from a nuclear powerplant to feel safe.
    Having lived much of my life in the shadow of a nuclear facility, I 
share their concern. I share their concern because I know more can be 
done to ensure our safety.
    Reservation lands located along our nation's borders and near 
critical infrastructure such as dams, hydroelectric facilities, and 
nuclear powerplants are vulnerable. Tribal governments should be given 
the mandate and resources needed to help keep these areas safe. 
Furthermore, in keeping with the Federal Government's trust 
responsibility to tribes, the Department of Homeland Security should be 
required to deal with tribes on a government-to-government basis--just 
as any other Federal agency would.
    Clearly, if it is going to be effective, the Homeland Security Act 
must involve tribes and be inclusive of tribal interests. It should 
recognize tribal governments and demand the same vigilance of tribes 
that is expected from others charged with protecting this Nation.
    On behalf of my community and tribal council, thank you again for 
the opportunity to, testify here today. We pledge our full cooperation 
in this matter and we look forward to further dialog and prudent 
action.
    Mr. Chairman, I'd be happy to answer any questions.

    [GRAPHIC] [TIFF OMITTED] T9143.001
    
    [GRAPHIC] [TIFF OMITTED] T9143.002
    
    [GRAPHIC] [TIFF OMITTED] T9143.003
    
    [GRAPHIC] [TIFF OMITTED] T9143.004
    
    [GRAPHIC] [TIFF OMITTED] T9143.005
    
    [GRAPHIC] [TIFF OMITTED] T9143.006
    
    [GRAPHIC] [TIFF OMITTED] T9143.007
    
    [GRAPHIC] [TIFF OMITTED] T9143.008
    
    [GRAPHIC] [TIFF OMITTED] T9143.009
    
    [GRAPHIC] [TIFF OMITTED] T9143.010
    
    [GRAPHIC] [TIFF OMITTED] T9143.011
    
    [GRAPHIC] [TIFF OMITTED] T9143.012
    
    [GRAPHIC] [TIFF OMITTED] T9143.013
    
    [GRAPHIC] [TIFF OMITTED] T9143.014
    
    [GRAPHIC] [TIFF OMITTED] T9143.015
    
    [GRAPHIC] [TIFF OMITTED] T9143.016
    
    [GRAPHIC] [TIFF OMITTED] T9143.017
    
    [GRAPHIC] [TIFF OMITTED] T9143.018
    
    [GRAPHIC] [TIFF OMITTED] T9143.019
    
    [GRAPHIC] [TIFF OMITTED] T9143.020
    
    [GRAPHIC] [TIFF OMITTED] T9143.021
    
    [GRAPHIC] [TIFF OMITTED] T9143.022
    
    [GRAPHIC] [TIFF OMITTED] T9143.023
    
    [GRAPHIC] [TIFF OMITTED] T9143.024
    
    [GRAPHIC] [TIFF OMITTED] T9143.025
    
    [GRAPHIC] [TIFF OMITTED] T9143.026
    
    [GRAPHIC] [TIFF OMITTED] T9143.027
    
    [GRAPHIC] [TIFF OMITTED] T9143.028
    
    [GRAPHIC] [TIFF OMITTED] T9143.029
    
    [GRAPHIC] [TIFF OMITTED] T9143.030
    
    [GRAPHIC] [TIFF OMITTED] T9143.031
    
    [GRAPHIC] [TIFF OMITTED] T9143.032
    
    [GRAPHIC] [TIFF OMITTED] T9143.033
    
    [GRAPHIC] [TIFF OMITTED] T9143.034
    
    [GRAPHIC] [TIFF OMITTED] T9143.035
    
    [GRAPHIC] [TIFF OMITTED] T9143.036
    
    [GRAPHIC] [TIFF OMITTED] T9143.037
    
    [GRAPHIC] [TIFF OMITTED] T9143.038
    
    [GRAPHIC] [TIFF OMITTED] T9143.039
    
    [GRAPHIC] [TIFF OMITTED] T9143.040
    
    [GRAPHIC] [TIFF OMITTED] T9143.041
    
    [GRAPHIC] [TIFF OMITTED] T9143.042
    
    [GRAPHIC] [TIFF OMITTED] T9143.043
    
    [GRAPHIC] [TIFF OMITTED] T9143.044
    
    [GRAPHIC] [TIFF OMITTED] T9143.045
    
    [GRAPHIC] [TIFF OMITTED] T9143.046
    
    [GRAPHIC] [TIFF OMITTED] T9143.047
    
    [GRAPHIC] [TIFF OMITTED] T9143.048
    
    [GRAPHIC] [TIFF OMITTED] T9143.049
    
    [GRAPHIC] [TIFF OMITTED] T9143.050
    
    [GRAPHIC] [TIFF OMITTED] T9143.051
    
    [GRAPHIC] [TIFF OMITTED] T9143.052
    
    [GRAPHIC] [TIFF OMITTED] T9143.053
    
    [GRAPHIC] [TIFF OMITTED] T9143.054
    
    [GRAPHIC] [TIFF OMITTED] T9143.055
    
    [GRAPHIC] [TIFF OMITTED] T9143.056
    
    [GRAPHIC] [TIFF OMITTED] T9143.057
    
    [GRAPHIC] [TIFF OMITTED] T9143.058
    
    [GRAPHIC] [TIFF OMITTED] T9143.059
    
    [GRAPHIC] [TIFF OMITTED] T9143.060
    
    [GRAPHIC] [TIFF OMITTED] T9143.061
    
    [GRAPHIC] [TIFF OMITTED] T9143.062
    
    [GRAPHIC] [TIFF OMITTED] T9143.063
    
    [GRAPHIC] [TIFF OMITTED] T9143.064
    
    [GRAPHIC] [TIFF OMITTED] T9143.065
    
    [GRAPHIC] [TIFF OMITTED] T9143.066
    
    [GRAPHIC] [TIFF OMITTED] T9143.067
    
    [GRAPHIC] [TIFF OMITTED] T9143.068
    
    [GRAPHIC] [TIFF OMITTED] T9143.069
    
    [GRAPHIC] [TIFF OMITTED] T9143.070
    
    [GRAPHIC] [TIFF OMITTED] T9143.071
    
    [GRAPHIC] [TIFF OMITTED] T9143.072
    
    [GRAPHIC] [TIFF OMITTED] T9143.073
    
    [GRAPHIC] [TIFF OMITTED] T9143.074
    
    [GRAPHIC] [TIFF OMITTED] T9143.075
    
    [GRAPHIC] [TIFF OMITTED] T9143.076
    
    [GRAPHIC] [TIFF OMITTED] T9143.077
    
    [GRAPHIC] [TIFF OMITTED] T9143.078
    
    [GRAPHIC] [TIFF OMITTED] T9143.079
    
    [GRAPHIC] [TIFF OMITTED] T9143.080
    
    [GRAPHIC] [TIFF OMITTED] T9143.081
    
    [GRAPHIC] [TIFF OMITTED] T9143.082
    
    [GRAPHIC] [TIFF OMITTED] T9143.083
    
    [GRAPHIC] [TIFF OMITTED] T9143.084
    
    [GRAPHIC] [TIFF OMITTED] T9143.085
    
    [GRAPHIC] [TIFF OMITTED] T9143.086
    
    [GRAPHIC] [TIFF OMITTED] T9143.087
    
    [GRAPHIC] [TIFF OMITTED] T9143.088
    
    [GRAPHIC] [TIFF OMITTED] T9143.089
    
    [GRAPHIC] [TIFF OMITTED] T9143.090
    
    [GRAPHIC] [TIFF OMITTED] T9143.091
    
    [GRAPHIC] [TIFF OMITTED] T9143.092
    
    [GRAPHIC] [TIFF OMITTED] T9143.093
    
    [GRAPHIC] [TIFF OMITTED] T9143.094
    
    [GRAPHIC] [TIFF OMITTED] T9143.095
    
    [GRAPHIC] [TIFF OMITTED] T9143.096
    
    [GRAPHIC] [TIFF OMITTED] T9143.097
    
    [GRAPHIC] [TIFF OMITTED] T9143.098
    
    [GRAPHIC] [TIFF OMITTED] T9143.099
    
    [GRAPHIC] [TIFF OMITTED] T9143.100
    
    [GRAPHIC] [TIFF OMITTED] T9143.101
    
    [GRAPHIC] [TIFF OMITTED] T9143.102
    
    [GRAPHIC] [TIFF OMITTED] T9143.103
    
    [GRAPHIC] [TIFF OMITTED] T9143.104
    
    [GRAPHIC] [TIFF OMITTED] T9143.105
    
    [GRAPHIC] [TIFF OMITTED] T9143.106
    
    [GRAPHIC] [TIFF OMITTED] T9143.107
    
    [GRAPHIC] [TIFF OMITTED] T9143.108
    
    [GRAPHIC] [TIFF OMITTED] T9143.109
    
    [GRAPHIC] [TIFF OMITTED] T9143.110
    
    [GRAPHIC] [TIFF OMITTED] T9143.111
    
    [GRAPHIC] [TIFF OMITTED] T9143.112
    
    [GRAPHIC] [TIFF OMITTED] T9143.113
    
    [GRAPHIC] [TIFF OMITTED] T9143.114
    
    [GRAPHIC] [TIFF OMITTED] T9143.115
    
    [GRAPHIC] [TIFF OMITTED] T9143.116
    
    [GRAPHIC] [TIFF OMITTED] T9143.117
    
    [GRAPHIC] [TIFF OMITTED] T9143.118
    
    [GRAPHIC] [TIFF OMITTED] T9143.119
    
    [GRAPHIC] [TIFF OMITTED] T9143.120
    
    [GRAPHIC] [TIFF OMITTED] T9143.121
    
    [GRAPHIC] [TIFF OMITTED] T9143.122
    
    [GRAPHIC] [TIFF OMITTED] T9143.123
    
    [GRAPHIC] [TIFF OMITTED] T9143.124
    
    [GRAPHIC] [TIFF OMITTED] T9143.125
    
    [GRAPHIC] [TIFF OMITTED] T9143.126
    
    [GRAPHIC] [TIFF OMITTED] T9143.127
    
    [GRAPHIC] [TIFF OMITTED] T9143.128
    
    [GRAPHIC] [TIFF OMITTED] T9143.129
    
    [GRAPHIC] [TIFF OMITTED] T9143.130
    
    [GRAPHIC] [TIFF OMITTED] T9143.131
    
    [GRAPHIC] [TIFF OMITTED] T9143.132
    
    [GRAPHIC] [TIFF OMITTED] T9143.133
    
    [GRAPHIC] [TIFF OMITTED] T9143.134
    
    [GRAPHIC] [TIFF OMITTED] T9143.135
    
    [GRAPHIC] [TIFF OMITTED] T9143.136
    
    [GRAPHIC] [TIFF OMITTED] T9143.137
    
    [GRAPHIC] [TIFF OMITTED] T9143.138
    
    [GRAPHIC] [TIFF OMITTED] T9143.139
    
    [GRAPHIC] [TIFF OMITTED] T9143.140
    
    [GRAPHIC] [TIFF OMITTED] T9143.141
    
    [GRAPHIC] [TIFF OMITTED] T9143.142
    
    [GRAPHIC] [TIFF OMITTED] T9143.143
    
    [GRAPHIC] [TIFF OMITTED] T9143.144
    
    [GRAPHIC] [TIFF OMITTED] T9143.145
    
    [GRAPHIC] [TIFF OMITTED] T9143.146
    
    [GRAPHIC] [TIFF OMITTED] T9143.147
    
    [GRAPHIC] [TIFF OMITTED] T9143.148
    
    [GRAPHIC] [TIFF OMITTED] T9143.149
    
    [GRAPHIC] [TIFF OMITTED] T9143.150
    
    [GRAPHIC] [TIFF OMITTED] T9143.151
    
    [GRAPHIC] [TIFF OMITTED] T9143.152
    

</pre></body></html>
